<html>
<title> - UNMANNED AERIAL SYSTEM THREATS: EXPLOR- ING SECURITY IMPLICATIONS AND MITIGATION TECHNOLOGIES</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


 
               UNMANNED AERIAL SYSTEM THREATS: EXPLOR-
                ING SECURITY IMPLICATIONS AND MITIGATION 
                TECHNOLOGIES

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                             OVERSIGHT AND
                         MANAGEMENT EFFICIENCY

                                 OF THE
                                 
                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 18, 2015

                               __________

                            Serial No. 114-9

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________
                               
                               
                               
                   U.S. GOVERNMENT PUBLISHING OFFICE
94-580 PDF             WASHINGTON : 2015                   
                               
_______________________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0e697e614e6d7b7d7a666b627e206d616320">[email&#160;protected]</a>  

                              
                               
                               
                               

                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Candice S. Miller, Michigan, Vice    James R. Langevin, Rhode Island
    Chair                            Brian Higgins, New York
Jeff Duncan, South Carolina          Cedric L. Richmond, Louisiana
Tom Marino, Pennsylvania             William R. Keating, Massachusetts
Steven M. Palazzo, Mississippi       Donald M. Payne, Jr., New Jersey
Lou Barletta, Pennsylvania           Filemon Vela, Texas
Scott Perry, Pennsylvania            Bonnie Watson Coleman, New Jersey
Curt Clawson, Florida                Kathleen M. Rice, New York
John Katko, New York                 Norma J. Torres, California
Will Hurd, Texas
Earl L. ``Buddy'' Carter, Georgia
Mark Walker, North Carolina
Barry Loudermilk, Georgia
Martha McSally, Arizona
John Ratcliffe, Texas
                   Brendan P. Shields, Staff Director
                    Joan V. O'Hara,  General Counsel
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                 ------                                

          SUBCOMMITTEE ON OVERSIGHT AND MANAGEMENT EFFICIENCY

                  Scott Perry, Pennsylvania, Chairman
Jeff Duncan, South Carolina          Bonnie Watson Coleman, New Jersey
Curt Clawson, Florida                Cedric L. Richmond, Louisiana
Earl L. ``Buddy'' Carter, Georgia    Norma J. Torres, California
Barry Loudermilk, Georgia            Bennie G. Thompson, Mississippi 
Michael T. McCaul, Texas (ex             (ex officio)
    officio)
               Ryan Consaul, Subcommittee Staff Director
                    Dennis Terry, Subcommittee Clerk
        Brian B. Turbyfill, Minority Subcommittee Staff Director
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Scott Perry, a Representative in Congress From the 
  State of Pennsylvania, and Chairman, Subcommittee on Oversight 
  and Management Efficiency:
  Oral Statement.................................................     1
  Prepared Statement.............................................     2
The Honorable Bonnie Watson Coleman, a Representative in Congress 
  From the State of New Jersey, and Ranking Member, Subcommittee 
  on Oversight and Management Efficiency:
  Oral Statement.................................................     3
  Prepared Statement.............................................     5
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Oral Statement.................................................     6
  Prepared Statement.............................................     7

                               Witnesses

Mr. Todd E. Humphreys, Assistant Professor, Cockrell School of 
  Engineering, The University of Texas at Austin:
  Oral Statement.................................................     9
  Prepared Statement.............................................    10
Major General Frederick F. Roggero, (USAF-Ret.), President and 
  Chief Executive Officer, Resilient Solutions, Ltd.:
  Oral Statement.................................................    15
  Prepared Statement.............................................    17
Mr. Richard Beary, President, International Association of Chiefs 
  of Police:
  Oral Statement.................................................    20
  Prepared Statement.............................................    22
Mr. Gregory S. McNeal, Associate Professor, School of Law, 
  Pepperdine University:
  Oral Statement.................................................    23
  Prepared Statement.............................................    25


                    UNMANNED AERIAL SYSTEM THREATS: 
      EXPLORING SECURITY IMPLICATIONS AND MITIGATION TECHNOLOGIES

                              ----------                              


                       Wednesday, March 18, 2015

             U.S. House of Representatives,
                         Subcommittee on Oversight 
                         and Management Efficiency,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:02 a.m., in 
Room 311, Cannon House Office Building, Hon. Scott Perry 
[Chairman of the subcommittee] presiding.
    Present: Representatives Perry, Carter, Loudermilk, Watson 
Coleman, Thompson, Richmond, and Torres.
    Mr. Perry. Committee on Homeland Security Subcommittee on 
Oversight and Management Efficiency will come to order. The 
purpose of this hearing is to receive testimony regarding 
security implications of small, unmanned aerial systems in the 
domestic airspace and technologies to mitigate associated 
threats.
    Chairman now recognizes itself for an opening statement.
    When most people think of unmanned aerial systems, or UAS, 
commonly known as drones, they may think of large aircraft used 
in overseas combat operations. However, in the coming years, 
the majority of UAS will be small--55 pounds or less--many of 
which fly less than 400 feet above the ground. Small UAS have a 
variety of potential uses such as pipeline, utility, and farm 
inspections, aerial photography, and crop-dusting, among other 
uses.
    Last month the Federal Aviation Administration, the FAA, 
released proposed rules to allow for the operation of small UAS 
for non-recreational purposes into domestic airspace. The 
proposed rules would place numerous limitations on flying small 
UAS: Flights could take place only in daylight, the area of 
operations would be limited, and only visual-line-of-sight 
operations would be permitted. These proposed rules are now 
open for public comment.
    Our hearing today will focus on the security implications 
of opening our skies to small UAS and how agencies such as the 
Department of Homeland Security, Federal, State, and local law 
enforcement agencies should prepare.
    Several recent security incidents are concerning. In 
January, a small quadcopter crashed on the White House lawn. 
Although the incident seemingly was accidental, it exposed the 
larger issue of how law enforcement should respond to UAS 
threats and, subsequently, the Secret Service quickly scheduled 
exercises in the D.C. area in response.
    Also, a September 2013 incident where a small UAS landed 
only inches away from German Chancellor Angela Merkel also 
exposed serious concerns and the challenge that protective 
services around the world now face.
    Last but not least, French police recently were confounded 
when several unidentified small UAS flew over key Paris 
landmarks, including the Eiffel Tower, as well as nuclear power 
plants. French authorities are investigating, but again, this 
incident showcases the challenges to law enforcement to respond 
swiftly to this new technology.
    Threats posed by the small UAS are nothing new. For 
example, an individual was arrested in September 2011 after a 
failed plot to attack the U.S. Capitol and Pentagon using 
multiple remote-controlled aircraft laden with explosives.
    But nightmare scenarios by terrorists aren't the only 
concern. Drug smugglers could use this technology as a cheap 
way to smuggle illegal drugs into the United States, and spies 
may also use small drones to get into areas we would prefer 
hidden.
    So the question remains: How can homeland security and law 
enforcement prepare for these potential threats?
    In July 2012, this committee held a hearing highlighting 
the need to address the security risks associated with UAS. In 
the past 3 years, the Department of Homeland Security has taken 
some steps to educate law enforcement and the public on small 
UAS.
    The National Protection and Programs Directorate, the NPPD, 
released a model aircraft reference aid to inform the public 
about potential illicit uses, impacts, and indicators of 
malicious activity. The Science and Technology Director has 
been assessing the capabilities of small UAS for State and 
local law enforcement and first responders.
    However, much more needs to be done to safeguard against 
malicious actors successfully using this technology for illegal 
means. The Department of Homeland Security needs a cohesive 
strategy to address these issues.
    Lone-wolf terrorists, drug smugglers, and foreign spies 
don't care about FAA rules. The DHS must help protect against 
these bad actors perverting this technology for their 
objectives.
    Testimony from our witnesses today will help provide a 
roadmap for what homeland security and law enforcement can do 
to mitigate this risk. Specifically, we need a better 
understanding of the technological solutions that exist to deal 
with these threats and what law enforcement needs to better 
respond when a small UAS is used for illegal activity.
    I look forward to hearing from today's witnesses on their 
assessment of the threats and potential solutions.
    [The statement of Chairman Perry follows:]
                   Statement of Chairman Scott Perry
                             March 18, 2015
    When most people think of unmanned aerial systems (UAS), commonly 
known as ``drones'', they think of large aircraft used in overseas 
combat operations; however, in the coming years, the majority of UAS 
will be small--55 pounds or less--some of which fly less than 400 feet 
above the ground. Small UAS have a variety of potential uses, such as 
pipeline, utility, and farm inspections, aerial photography, and crop 
dusting, among others. Last month, the Federal Aviation Administration 
(FAA) released proposed rules to allow for operation of small UAS for 
non-recreational purposes into domestic airspace. The proposed rules 
would place numerous limitations on flying small UAS: Flights could 
take place only in daylight, the area of operations would be limited, 
and only visual-line-of-sight operations would be permitted. These 
proposed rules now are open for public comment. Our hearing today will 
focus on the security implications of opening our skies to small UAS 
and how agencies such as the Department of Homeland Security (DHS), 
Federal, State, and local law enforcement should prepare.
    Several recent security incidents are concerning. In January, a 
small quadcopter crashed on the White House lawn. Although the incident 
seemingly was accidental, it exposed the larger issue of how law 
enforcement should respond to UAS threats and, subsequently, the Secret 
Service quickly scheduled exercises in the D.C. area in response. Next, 
a September 2013 incident where a small UAS landed only inches away 
from German Chancellor Angela Merkel also exposed serious concerns and 
the challenge that protective services around the world now face. Last 
but not least, French police recently were confounded when several 
unidentified small UAS flew over key Paris landmarks, including the 
Eiffel Tower as well as nuclear power plants. French authorities are 
investigating, but again, this incident showcases the challenges for 
law enforcement to respond swiftly to this new technology.
    Threats posed by small UAS are nothing new. For example, an 
individual was arrested in September 2011 after a failed plot to attack 
the U.S. Capitol and Pentagon using multiple remote controlled aircraft 
laden with explosives. But nightmare scenarios by terrorists aren't the 
only concern. Drug smugglers could use this technology as a cheap way 
to smuggle illegal drugs into the United States, and spies may also use 
small drones to get into areas we would prefer hidden.
    So the question is: How can homeland security and law enforcement 
prepare for these potential threats? In July 2012, this committee held 
a hearing highlighting the need to address the security risks 
associated with UAS. In the past 3 years, the Department of Homeland 
Security has taken some steps to educate law enforcement and the public 
on small UAS. The National Protection and Programs Directorate (NPPD) 
released a model aircraft reference aid to inform the public about 
potential illicit uses, impacts, and indicators of malicious activity. 
The Science and Technology Directorate has been assessing the 
capabilities of small UAS for State and local law enforcement and first 
responders. However, much more needs to be done to safeguard against 
malicious actors successfully using this technology for illegal means. 
The Department of Homeland Security needs a cohesive strategy to 
address these issues.
    Lone-wolf terrorists, drug smugglers, and foreign spies don't care 
about FAA rules. DHS must help protect against these bad actors 
perverting this technology for their objectives. Testimony from our 
witnesses today will help provide a roadmap for what homeland security 
and law enforcement can do to mitigate this risk. Specifically, we need 
a better understanding of the technological solutions that exist to 
deal with these threats and what law enforcement needs to better 
respond when a small UAS is used for illegal activity. I look forward 
to hearing from today's witnesses on their assessment of the threats 
and potential solutions.

    Mr. Perry. The Chairman now recognizes the Ranking Minority 
Member of the subcommittee, the gentlelady from New Jersey, 
Mrs. Watson Coleman, for her statement.
    Mrs. Watson Coleman. Thank you very much, Mr. Chairman. 
Again, thank you for holding this hearing.
    I would also like to thank the panel of witnesses for 
appearing before the subcommittee today.
    I am very interested in hearing from Professor McNeal, an 
expert on the issue of drones, about the potential policy 
options available to mitigate and respond to the threats posed 
by the commercial availability of unmanned aerial systems. 
Additionally, I am eager to hear from Professor Humphreys 
regarding DHS's efforts since his last appearance before the 
subcommittee to respond to the security vulnerabilities 
associated with drones.
    I am also looking forward to hearing from Mr. Roggero, who 
will be able to better inform this subcommittee about emerging 
technology that can be used to increase the safety of our 
airspace and our security posture as drones become increasingly 
integrated into our National airspace. Last, I am pleased that 
Chief Beary, the president of the International Association of 
Chiefs of Police, is appearing before this subcommittee.
    Although you are here today to testify about the use of 
drones in law enforcement, I cannot forego the opportunity to 
talk with you about an issue that is very important to me and 
my constituents--that is the recent report from the Department 
of Justice on policing in Ferguson, Missouri, which found that 
many predominantly African-American neighborhoods are targeted 
in an effort to raise revenue for financial functions.
    My question will be: Are drones possibly--can they possibly 
be mechanisms used for accountability, such as body cameras 
will be? I want to thank you for the fine job that you are 
doing, but this issue really must be addressed.
    Now, back to the specifics of drones. Commercially-
available drones are becoming an increasingly popular purchase, 
with the drone market expected to grow $84 billion over the 
next 5 years. As the commercial drone market grows, so, too, 
does the threat that drones will be used by actors with ill 
intent.
    Drones can be purchased on-line with prices starting as low 
as $40, and they are fairly easy to assemble and learn how to 
operate. In many cases, it is easier to learn how to operate a 
drone than it is a model aircraft.
    With drones being so easily accessible, we must consider 
the potential they have to be used as mechanisms to conduct an 
attack.
    Although we have not yet witnessed such an attack, we have 
seen how individuals operating drones have gotten 
extraordinarily close to at least one head of state. During the 
campaign rallying in 2013, the drone, piloted by an opposition 
party supporter, landed at the feet of the chancellor of 
Germany, Angela Merkel, as mentioned by my Chairman.
    There have also been recent stories of mysterious drones 
flying over sensitive Government assets, including the U.S. 
Embassy in Paris, and we are all familiar with the story 
regarding the drone landing on the White House lawn in January. 
It does not take wild imagination to envision what may happen 
if someone with malicious intent got their hands on drones.
    This emerging threat requires a unified effort by the 
Department of Homeland Security in developing security plans 
for mitigation and response. The Department of Homeland 
Security must conduct risk assessment to accurately determine 
the threat posed by drones.
    In the absence of risk assessments and a measured approach, 
the Department will spend millions of dollars without knowing 
what the real threat is or how to defend against it.
    Unfortunately, the Department of Homeland Security declined 
this invitation to testify before this subcommittee to explain 
how they are working toward a Department-wide strategy and 
address the issues at hand. Even without the Department's 
testimony, I am confident that the panel of witnesses that are 
here today will help us better understand the threat posed by 
drones and the technologies available to address that threat.
    Although drones are not the only avenue for conducting 
attacks, it is imperative that we leave the bad guys with fewer 
rather than a whole universe of options. We will narrow the 
threat picture by dealing with the security vulnerabilities 
posed by commercially-available drones while still recognizing 
the economic benefits of the industry.
    With that, Mr. Chairman, I thank you and I yield back the 
balance of my time.
    [The statement of Ranking Member Watson Coleman follows:]
           Statement of Ranking Member Bonnie Watson Coleman
                             March 18, 2015
    I am very interested in hearing from Professor McNeal, an expert on 
the issue of drones, about the potential policy options available to 
mitigate and respond to the threats posed by the commercial 
availability of Unmanned Aerial Systems.
    Additionally, I am eager to hear from Professor Humphreys regarding 
DHS' efforts, since his last appearance before the subcommittee, to 
respond to the security vulnerabilities associated with drones.
    I am also looking forward to hearing from Mr. Roggero who will be 
able to better inform the subcommittee about emerging technology that 
can be used to increase the safety of our airspace and our security 
posture as drones become increasingly integrated into our National 
airspace.
    Lastly, I am pleased that Chief Beary, the president of the 
International Association of Chiefs of Police, is appearing before the 
subcommittee.
    Although you are here to testify about the use of drones in law 
enforcement, I cannot forgo the opportunity to talk with you about an 
issue that is very important to me and my constituents.
    That is, the recent report from the Department of Justice on 
policing in Ferguson, Missouri, which found that many predominantly 
African American neighborhoods are targeted in an effort to raise 
revenue for municipal functions. I want to thank you for the fine job 
you are doing, but this issue must be addressed.
    Now, back to the subject of drones. Commercially-available drones 
are becoming an increasingly popular purchase, with the drone market 
expected to grow $84 billion over the next 5 years.
    As the commercial drone market grows, so too does the threat that 
drones will be used by actors with ill intent. Drones can be purchased 
on-line, with prices starting as low as $40, and they are fairly easy 
to assemble and learn how to operate. In many cases, it is easier to 
learn how to operate a drone than it is a model aircraft.
    With drones being so easily accessible, we must consider the 
potential they have to be used as a mechanism to conduct an attack. 
Although we have not yet witnessed such an attack, we have seen how 
individuals operating drones have gotten extraordinarily close to at 
least one Head of State.
    During a campaign rally in 2013, a drone, piloted by an opposition 
party supporter landed at the feet of Germany's Chancellor, Angela 
Merkel. There have also been recent stories of mysterious drones flying 
over sensitive Government assets, including the U.S. Embassy, in Paris 
and we are all familiar with the story regarding a drone landing on the 
White House lawn in January.
    It does not take a wild imagination to envision what may happen if 
someone with malicious intent got their hands on a drone. This emerging 
threat requires a unified effort by the Department of Homeland Security 
in developing security plans for mitigation and response.
    The Department of Homeland Security must conduct risk assessments 
to accurately determine the threat posed by drones.
    In the absence of risk assessments and a measured approach, the 
Department will spend millions of dollars without knowing what the real 
threat is or how to defend against it.
    Unfortunately, the Department of Homeland Security declined our 
invitation to testify before the subcommittee to explain how they are 
working towards a Department-wide strategy to address the issue at 
hand. Even without the Department's testimony, I am confident that the 
panel of witnesses here today will help us better understand the threat 
posed by drones and the technologies available to address that threat.
    Although drones are not the only avenue for conducting attacks, it 
is imperative that we leave the ``bad guys'' with fewer, rather than a 
whole universe of options.
    We will narrow the threat picture by dealing with the security 
vulnerabilities posed by commercially-available drones.

    Mr. Perry. Chairman thanks the gentlelady.
    The Chairman now recognizes the Ranking Member of the full 
committee, the gentleman from Mississippi, Mr. Thompson.
    Mr. Thompson. Thank you, Mr. Chairman, and thank you for 
holding this important and timely hearing.
    On a daily basis articles are published about the 
suspicious use of commercially-available drones. In recent 
weeks drones have been observed flying over sensitive locations 
in Paris. According to French authorities, drones have flown 
over nuclear installations, the home of the French president, 
and the United States Embassy.
    Here in the United States, a drone recently crashed on the 
White House grounds. While the incident at the White House has 
been described by officials as nothing more than a drunken 
misadventure, it raises questions about the threat 
commercially-available drones may pose to individuals, 
infrastructure, and our aviation systems.
    Undoubtedly, drones have great potential. In Japan, drones 
have been used by farmers for years as an efficient and 
effective tool for crop fertilization. Projects for commercial 
use in the United States display that drones will become a 
common sight on farms in Pennsylvania and my home State of 
Mississippi in the coming years.
    In the wrong hands, however, these potentially valuable 
commercial tools could become dangerous instruments for attack. 
That is why it is critical that the Department of Homeland 
Security conduct risk assessments to determine what steps 
should be taken to mitigate the potential threat.
    To date, we have learned of components of the Department, 
such as Secret Service and the Science and Technology 
Directorate, conducting testing that identifies methods to 
address the potential threats drones pose. It is less clear 
whether there is a Department-wide strategy to develop--to 
address the issue.
    Unfortunately, despite being invited, as previously 
commented, the Department of Homeland Security is not here 
today to explain why and to Members what is being done to 
address the security vulnerabilities drones expose. Despite the 
Department's absence, I am confident that the Members will 
receive valuable testimony from this distinguished panel of 
witnesses assembled.
    Professor McNeal is an expert on the issues of drones and 
will add a valuable voice to our conversation about the policy 
solutions should be explored to address the security concerns 
surrounding drones. Professor Humphreys is making his second 
appearance before the subcommittee to discuss the issue. I look 
forward to the other witnesses' testimony also.
    Finally, I am pleased that Chief Beary is appearing in his 
capacity as president of the International Association of 
Chiefs of Police. We all have questions Chief Beary can address 
regarding how law enforcement utilizes drones and how they 
respond to drone operating in our cities.
    However, before yielding back, Mr. Chairman, I am compelled 
to point out that much of what we, and now the public, know of 
the Secret Service's testing of drones is the result of leaks. 
Unfortunately, it is all too common an occurrence that 
information provided to Members and staff in our security space 
to be published by the media in the next days and hours after 
the briefing.
    This committee has a responsibility to the American people 
to make the Department of Homeland Security work and, 
accordingly, our Nation more secure. Leaking Classified 
information is in direct conflict with that responsibility. It 
is also in conflict with the law and the oath we signed to 
obtain access to Classified information.
    I hope and trust all Members and staff of this committee 
and those of other committees we invite to attend briefings 
will take the oath and the responsibility that comes with it to 
heart.
    With that, Mr. Chairman, I yield back.
    [The statement of Ranking Member Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
                             March 18, 2015
    On a daily basis, articles are published about the suspicious use 
of commercially-available drones. In recent weeks, drones have been 
observed flying over sensitive locations in Paris. According to French 
authorities, drones have flown over nuclear installations, the home of 
the French President, and near the United States embassy.
    Here in the United States, a drone recently crashed on the White 
House grounds. While the incident at the White House has been described 
by officials as nothing more than a drunken misadventure, it raised 
questions about the threat commercially available drones may pose to 
individuals, infrastructure, and our aviation system.
    Undoubtedly, drones have great potential. In Japan, drones have 
been used by farmers for years as an efficient and effective tool for 
crop fertilization. Projections for commercial use in the United States 
display that drones will become a common sight on farms from 
Pennsylvania to Mississippi in the coming years.
    In the wrong hands, these potentially valuable commercial tools 
could become dangerous instruments for attack. That is why it is 
critical that the Department of Homeland Security conduct risk 
assessments to determine what steps should be taken to mitigate the 
potential threat.
    To date, we have learned of components of the Department, such as 
the Secret Service and Science and Technology Directorate, conducting 
testing to identify methods to address the potential threat drones 
pose. It is less clear whether there is a Department-wide strategy 
being developed to address the issue.
    Unfortunately, despite being invited to testify, the Department of 
Homeland Security is not here today to explain to Members what is being 
done to address the security vulnerability drones expose. Despite the 
Department's absence, I am confident that the Members will receive 
valuable testimony from the distinguished panel of witnesses assembled.
    Professor McNeal is an expert on the issue of drones and will add a 
valuable voice to our conversation about what policy solutions should 
be explored to address the security concerns surrounding drones.
    Professor Humphries is making his second appearance before the 
subcommittee to discuss this issue. I look forward to hearing from him 
regarding the progress DHS has made regarding drones since his 
appearance in 2012.
    I also look forward to hearing from Mr. Roggero regarding potential 
technological solutions to the threat posed by drones.
    Finally, I am please that Chief Beary is appearing in his capacity 
as president of the International Association of Chiefs of Police. We 
all have questions Chief Beary can address regarding how law 
enforcement utilizes drones and how they respond to drones operating in 
our cities.
    Before yielding back Mr. Chairman, I am compelled to point out that 
much of what we, and now the public, knows about the Secret Service's 
testing of drones is the result of leaks. Unfortunately, it is an all 
too common occurrence for information provided to Members and staff in 
our secure space to be published by the media in the days and hours 
after briefings.
    This committee has a responsibility to the American people to make 
the Department of Homeland Security work and accordingly our Nation 
more secure.
    Leaking Classified information is in direct conflict with that 
responsibility. It is also in conflict with the law and oath we signed 
to obtain access to Classified information. I hope, and trust, all 
Members and staff of this committee, and those on other committees we 
invite to attend briefings, will take the oath and the responsibility 
that comes with it to heart.

    Mr. Perry. Chairman thanks the gentleman.
    Other Members of the subcommittee are reminded that opening 
statements may be submitted for the record.
    We are pleased to have a distinguished panel of witnesses 
before us today on this important topic.
    Let me remind the witnesses that their entire written 
statement will appear in the record, and I will introduce each 
of you first and then recognize you for your testimony.
    Dr. Todd Humphreys is a professor at the Cockrell School of 
Engineering at the University of Texas at Austin. He directs 
their radio navigation laboratory at U.T. Austin, where his 
research focuses on defending against intentional GPS spoofing 
and jamming.
    Dr. Humphreys' research has uncovered that GPS signals that 
navigate unmanned aerial systems can be hijacked and 
controlled. Dr. Humphreys obtained his doctorate from Cornell 
University.
    Mr. Frederick Roggero is president--got that correct, don't 
I, General--president and CEO of Resilient Solutions. Mr. 
Roggero is an expert in commercial unmanned aerial systems.
    Previously, Mr. Roggero served as the chief of safety of 
the U.S. Air Force, where he oversaw all Air Force aviation, 
ground, weapons, space, and systems mishap prevention, and 
nuclear surety programs. Mr. Roggero is also a pilot with over 
4,000 hours in 22 different type of military aircraft. Mr. 
Roggero retired from the Air Force with the rank of major 
general.
    Thank you for your service, sir.
    Chief Richard Beary is president of the International 
Association of Chiefs of Police. Chief Beary served for over 30 
years as a law enforcement officer in Florida, including as 
chief of police for the University of Central Florida, the 
largest university in the State. Chief Beary was awarded the 
Medal of Valor twice in his career.
    Thank you for your service, sir.
    Dr. Gregory McNeal is a professor at Pepperdine University, 
where his research and teaching focus is on National security 
law and policy, criminal law and procedure, and international 
law. Previously he served as assistant director of the 
Institute for Global Security and codirected a transnational 
counterterrorism grant program at the U.S. Justice Department. 
Dr. McNeal obtained his doctorate from Pennsylvania State 
University.
    Go Lions.
    All right. Thank you all for being here today.
    Chairman now recognizes Dr. Humphreys for his testimony.

 STATEMENT OF TODD E. HUMPHREYS, ASSISTANT PROFESSOR, COCKRELL 
    SCHOOL OF ENGINEERING, THE UNIVERSITY OF TEXAS AT AUSTIN

    Mr. Humphreys. Chairman Perry, Ranking Member Watson 
Coleman, and Ranking Member Thompson, last August the U.T. 
football season opener was interrupted by a drone. There were 
nearly 100,000 football fans in the stadium that day and the 
police had to stand by watching helplessly as this drone 
shifted around the stadium.
    The incident only ended when the operator decided to recall 
the drone and it landed at his feet.
    The situation turned out to be harmless. This was just a 
case of a ticketless but devoted U.T. football fan who just 
wanted to watch the game. But the police couldn't have known 
that before-hand, so they had to treat the incident as a 
potential attack on the multitude of gathered spectators.
    In the years to come, this intrusion at the U.T. football 
stadium will be replayed in various forms at sites critical to 
the security of the United States. The great majority of these 
incidents will be accidently, like the flyaway drone that 
crashed at the White House in January.
    But in the early stages of a drone incursion, it is 
impossible to distinguish the accidental from the intentional, 
the malignant from the benign. The distressing truth is that 
even consumer-grade drones can be rigged to carry out potent 
attacks, and against these attacks our defenses will either be 
only weakly effective or so militarized as to pose themselves a 
threat to bystanders and the surrounding civil infrastructure.
    In thinking about how to detect and defend against rogue 
UAVs, it is useful to distinguish three categories. First are 
the accidental intrusions; second are the intentional 
intrusions by unsophisticated operators; and third are the 
intentional intrusions by sophisticated operators--these are 
people who know how to modify the hardware and software of a 
drone to make it do what they want.
    Detecting and safely repelling intrusions of the first two 
categories is not simple, but it is quite possible. Commercial 
UAV manufacturers can play a key role here by implementing GPS-
enforced geo-fences within their autopilot systems. That simple 
fix would prevent accidental and unsophisticated drone 
intrusions into restricted airspace.
    So what about the third type--the sophisticated malicious 
attacks? These will be much more difficult to counter. The fact 
is that for any reasonable defense I can imagine, I can also 
imagine a counter to that defense, a way to circumvent that 
defense.
    I am not alone. Any one of my graduate students at the 
University of Texas, or many undergraduate students walking the 
halls of universities across the globe, or those part of the 
do-it-yourself community, hobbyists--these people have the kind 
of skills that would be required to carry out one of the 
sophisticated attacks I mentioned. The documentation is also 
extensive.
    So what should we do? Well, let's start with what we 
shouldn't do.
    It won't help to impose stricter regulations on small UAS 
than the sensible regulations the FAA has already proposed. 
Likewise, restricting open-source autopilot platforms would 
hardly improve security, but it would stifle innovation. 
Military-style radio link or GPS jamming or spoofing wouldn't 
stop a sophisticated attacker, but would endanger commercial 
airliners and disrupt communications.
    In my view, the most sensible way forward is to focus on 
accidental and unsophisticated UAV intrusions. Let's encourage 
the UAV manufacturers to put geo-fences in their autopilot 
systems.
    For especially sensitive sites like the White House, we 
could deploy a network of infrared cameras set up to detect and 
track an incoming drone by looking for the thermal signatures 
of its warm batteries and motors. This network of sensors could 
be used to guide an always-ready squadron of interceptor drones 
that could capture the intruder in a net can carry it off.
    But we should refrain from any more drastic measures than 
these until the threat of UAVs proves to be more of a menace 
than the recent incidents, which, while alarming, were 
ultimately harmless.
    Thank you.
    [The prepared statement of Dr. Humphreys follows:]
                  Prepared Statement of Todd Humphreys
                             March 16, 2015
                               1. summary
    The nearly 100,000 football fans gathered in Texas Memorial Stadium 
last August to watch the Longhorn football season opener had trouble 
concentrating on the game. Hovering above the stadium was an unmanned 
aerial vehicle (UAV), a drone, with blue and red blinking lights. The 
University of Texas Police watched helplessly as the UAV shifted from 
one area of the stadium to another. When the UAV's operator finally 
recalled the device and landed it at his feet in a nearby parking lot, 
the police immediately took both UAV and operator into custody.
    The situation turned out to be no more menacing than a devoted but 
ticketless UT football fan trying to watch the game through the video 
feed on his drone. But the police could not have known this before-
hand, and so had to treat the incident as a potential chemical, 
biological, or explosive attack on the multitude of gathered 
spectators.
    As we enter an age of highly capable and increasingly autonomous 
UAVs purchasable for a few hundred dollars over the internet, the 
intrusion at the UT football stadium will be replayed in various forms 
at sites critical to the security of the United States. The great 
majority of these incidents will be accidental, such as the flyaway UAV 
that crashed on the White House grounds in January. But in the early 
stages of a UAV incursion, it will be impossible to distinguish the 
accidental from the intentional, the benign from the malicious. And the 
distressing truth is that even consumer-grade UAVs can be rigged to 
carry out potent attacks against which our defenses will either be only 
weakly effective or so militarized that the defenses themselves will 
pose a threat to the surrounding civil infrastructure.
    UAVs have been around for a long time. The Academy of Model 
Aeronautics was founded in 1936 and since that time a vibrant and 
knowledgeable community of radio-controlled model aircraft enthusiasts 
has been active in the United States and across the globe. What 
explains, then, the recent uptick in alarming UAV sightings near 
sensitive sites? The answer is clear: Never before have highly-capable 
UAVs been so inexpensive and widely available. One can buy over the 
internet today a UAV that rivals the increasingly autonomous 
surveillance and guidance capability of military UAVs. Many of these 
commercial UAVs can easily carry a payload of a couple of pounds or 
more.
    In thinking about how to detect and defend against UAV incursions 
into sensitive airspace, it is useful to distinguish three categories. 
First are the accidental intrusions, whether the UAV operators are 
sophisticated or not. Second are intentional intrusions by 
unsophisticated operators. Third are intentional intrusions by 
sophisticated operators--those capable of assembling a UAV from 
components and modifying its hardware and software.
    Detecting and safely repelling intrusions of the first two types is 
not simple but is quite possible. Commercial UAV manufacturers can play 
a key role here by implementing GPS-enforced geofences within their 
autopilot systems that prevent their UAVs from being flown within 
exclusion zones around airports, sports stadiums, Government buildings, 
and other security-sensitive sites. The sites themselves could be 
equipped with radar, acoustic, and electro-optical sensors for UAV 
detection, and with powerful and agile interceptor UAVs, possibly 
working as a team, that could capture and carry off a small number of 
simultaneous intruders.
    UAV intrusions of the third type will be much more difficult to 
counter. A sophisticated attacker could mount a kamikaze-style attack 
against a sensitive target using a fixed-wing powered glider with an 
explosive few-pound payload. The UAV glider could be launched tens of 
miles from the target.
    It could cut its engine on final approach to evade acoustic 
detectors, and could be built of poorly-radar-reflective material 
(e.g., Styrofoam) to evade radar detection. With only minor changes to 
the UAV's autopilot software, of which highly-capable open-source 
variants exist, an attacker could readily disable geofencing and could 
configure the UAV to operate under ``radio silence,'' ignoring external 
radio control commands and emitting no radio signals of its own. The 
UAV would thus be difficult to detect and would be impervious to 
command link jamming or hijacking. Moreover, the attacker could 
configure the autopilot to ignore GPS/GNSS signals during the final 
approach to the target, relying instead on an inexpensive magnetometer-
disciplined inertial navigation system. Such a modification would 
render GPS/GNSS jamming or deception (spoofing) useless during final 
approach.
    It is not obvious how to protect critical civil infrastructure 
against such a UAV, or--worse yet--against a swarm of such UAVs. What 
is more, the skills required of operators in this third category are 
not uncommon: The do-it-yourself UAV and autopilot development 
communities are large and the documentation of both hardware and 
software is extensive. One should also bear in mind that the threshold 
for a successful attack is low when success is measured by the ability 
to cause widespread panic or economic disruption. For example, 
explosion of a UAV anywhere on the White House grounds could be seen as 
a highly successful attack even if it causes only minor physical 
damage.
    What can be done? First, it is important to take stock of what 
should not be done. Imposing restrictions on small UAVs beyond the 
sensible restrictions the Federal Aviation Administration recently 
proposed would not significantly reduce the threat of rogue UAVs yet 
would shackle the emerging commercial UAV industry. In fact, even the 
FAA's current ban on non-line-of-sight UAV control would be of little 
consequence to a malefactor capable of modifying an open-source 
autopilot. Likewise, restricting open-source autopilot platforms would 
hardly improve security but would stifle innovation. Powerful and 
persistent wide-area GPS/GNSS jamming would prevent inexpensive UAV 
attacks launched from miles away from reaching their targets, but this 
military-style defense would be disruptive to civil use of GPS over a 
wide area. Powerful GPS jamming around the White House, for example, 
would deny GPS aiding to commercial aircraft at nearby Reagan National 
Airport. Similarly, anti-UAV laser or electromagnetic pulse systems are 
a danger to nearby civil infrastructure and transport.
    From a strictly technological point of view, the best way forward 
will be to adopt simple measures that sharply reduce the risk of 
category 1 and 2 incidents, such as voluntary manufacturer-imposed 
geofencing. For especially critical sites, detection and tracking 
systems based on electro-optical sensors will be most effective, 
particularly those applying infrared sensor pattern recognition to 
distinguish a UAV's warm motors and batteries from a bird's warm body. 
The output of such a detection and tracking system could be fed to an 
always-ready squadron of interceptor UAVs whose job would be to catch 
the intruder in a net and expel it, or, as a last resort, to collide 
with it and force it down. We should refrain from any more drastic 
measures than this until the threat of UAVs proves to be more of a 
menace than the recent incidents, which were alarming but harmless.
    The following sections offer more detailed analysis of potential 
techniques for detecting, tracking, and repelling UAVs.
                       2. detection and tracking
    This section gives an overview of techniques that may be used to 
detect and track UAVs operating in restricted airspace. Merits and 
drawbacks of each technique are noted.
2.1 Conventional Surveillance: Radar and Beacon Transmitters.--
Conventional aircraft surveillance techniques are based on radar and 
beacon transmissions from aircraft. The latter either respond to ground 
interrogation (as with secondary surveillance radar) or are broadcast 
from the aircraft without interrogation (as with ADS-B)\1\, Ch. 5).
---------------------------------------------------------------------------
    \1\ K. Wesson, Secure Navigation And Timing Without Local Storage 
Of Secret Keys. PhD thesis, The University of Texas at Austin, May 
2014.
---------------------------------------------------------------------------
2.1.1 Advantages
    1. Primary surveillance radar (PSR) and secondary surveillance 
        radar (SSR) systems are already installed at major airports 
        across the United States.
    2. PSR does not assume any cooperation from the target and so is 
        well-suited for detecting malicious intruders.
    3. If an incoming UAV is broadcasting ADS-B squitters, detecting 
        and tracking it would be trivial.
2.1.2 Drawbacks
    1. UAVs do not typically carry SSR beacons, and it would be wishful 
        thinking to expect Category 3 UAV intruders to be equipped with 
        functioning ADS-B beacons.
    2. UAVs whose structure is made of poorly-radar-reflective 
        materials (e.g., a fixed-wing glider made of Styrofoam) and 
        having a wingspan less than a few meters would not be visible 
        to PSR or would be hardly distinguishable from birds or bats. 
        Moreover, UAVs flying at an altitude of less than 100 feet 
        would be difficult to detect by PSR.
2.2 Acoustic Sensing.--The motors of electric-powered rotorcraft and 
fixed-wing UAVs emit a characteristic whine that can be used to detect 
such UAVs. Gas-powered UAVs also exhibit a characteristic acoustic 
signature.
2.2.1 Advantages
    1. Low cost, even when implemented as a network of sensing devices 
        placed around the protection perimeter.
    2. Can be highly effective when combined with electro-optical 
        sensing to distinguish UAVs from electric weed whackers.
    3. Forces a UAV wishing to evade detection to execute final 
        approach as a glider or a free-falling rotorcraft.
2.2.2 Drawbacks
    1. Leads to false positives due to electric weed whackers or 
        spoofing via playback of an audio recording of a UAV if not 
        combined with other sensing modalities such as electro-optical 
        sensing.
    2. Incapable of detecting fixed-wing UAVs operating as gliders or 
        rotorcraft UAVs in free fall.
    3. Unlikely to offer reliable detection at more than a 500-meter 
        standoff range.
2.3 Radio Emission Sensing.--UAVs typically send data back to their 
controller through a wireless data link. Using a directional antenna or 
a network of synchronized ground stations, such emissions can be 
detected and located.\2\
---------------------------------------------------------------------------
    \2\ J.A. Bhatti, T.E. Humphreys, and B.M. Ledvina, ``Development 
and demonstration of a TDOA-based GNSS interference signal localization 
system,'' in Proceedings of the IEEE/ION PLANS Meeting, pp. 1209-1220, 
April 2012.
---------------------------------------------------------------------------
2.3.1 Advantages
    1. Can offer effective detection and accurate tracking of multiple 
        UAVs with arbitrary emitted waveforms if the UAV emissions are 
        sufficiently persistent and powerful.
2.3.2 Drawbacks
    1. To be economical and offer rapid detection, the system must have 
        some knowledge of the emission center frequency and bandwidth.
    2. Easily evaded by a UAV operating under radio silence, which 
        would be trivial for a Category 3 attacker to implement.
2.4 Electro-Optical Sensing.--Electro-optical (EO) sensors in the form 
of cameras that are sensitive to visible light or infrared radiation 
can be quite effective at detecting and tracking UAVs.
2.4.1 Advantages
    1. An EO sensing network can be built from small, low-cost sensors 
        with only mild synchronization requirements. The network could 
        be geographically large (e.g., it could cover the area around 
        the White House and the U.S. Capitol in Washington, DC), which 
        would increase the chance of detecting and the accuracy of 
        tracking an overflying UAV.
    2. Infrared EO sensors can detect the warm motors or batteries of 
        UAVs day or night and, with proper pattern recognition, would 
        likely be reliable in distinguishing UAVs from birds, bats, and 
        insects.
    3. A network of EO sensors can offer full three-dimensional target 
        tracking.
2.4.2 Drawbacks
    1. The author is not aware of a commercial networked EO system that 
        can provide 3-D UAV tracking and distinguish UAVs from 
        wildlife. But there do not appear to be any serious 
        technological roadblocks that would prevent such a system from 
        being developed and deployed.
    2. It is unclear what the effective range of an infrared sensor 
        network could be. This will depend on the strength of thermal 
        emissions from a UAV and on the pattern recognition algorithm 
        tasked with distinguishing the UAV from wildlife.
                         3. electronic defenses
    For typical operation, UAVs capable of autonomous flight rely on 
two vital wireless links: The command link to the operator and the 
(passive) navigation signal link to overhead GPS/GNSS spacecraft.\3\ In 
the event of a UAV attack, a defender can attempt to disrupt these 
links or feed false signals to the UAV's radios.\4\
---------------------------------------------------------------------------
    \3\ K.D. Wesson and T.E. Humphreys, ``Hacking drones,'' Scientific 
American, vol. 309, no. 5, pp. 54-59, 2013.
    \4\ A.J. Kerns, D.P. Shepard, J.A. Bhatti, and T.E. Humphreys, 
``Unmanned aircraft capture and control via GPS spoofing,'' Journal of 
Field Robotics, vol. 31, no. 4, pp. 617-636, 2014.
---------------------------------------------------------------------------
3.1 Command Link Jamming and Appropriation.--Modern commercial UAVs are 
controlled by one or more wireless links to the operator's control 
equipment. Traditional RC controllers are still used as a back-up means 
of control even for UAVs capable of a high degree of autonomy. These 
controllers send low-level commands to the autopilot system or directly 
to the UAV motors or to the servos that actuate the aircraft's control 
surfaces. These transmitters typically operate in unlicensed bands 
(often 2.4GHz), but do not typically use WiFi/802.11 protocols, 
preferring direct-sequence spread spectrum (DSSS) or frequency-hopped 
spread spectrum (FHSS) protocols that offer a large number of 
independent channels.
    For control at a higher level of abstraction, a control station may 
communicate with a UAV independent of the RC controller. Like the RC 
controller, this link is often established within unlicensed bands. For 
example, the popular DJI drone establishes this link in the 2.4 GHz 
band using a standard WiFi/802.11 protocol. This link facilitates video 
downlinking and general control functionality such as parameter setting 
and high-level trajectory control.
    In defending a sensitive site from UAV intrusion, a defender may 
attempt to jam or appropriate the command link.
3.1.1 Advantages
    1. Command link jamming or appropriation is an effective means of 
        denying a hostile operator the ability to execute an RC-
        controlled visual line-of-sight UAV attack or a first-person-
        viewer (FPV) UAV attack.
    2. Command link jamming forces an attacking UAV to operate 
        independently from its human operators.
    3. Command link appropriation can enable a defender to obtain full 
        control of an intruder UAV.
3.1.2 Drawbacks
    1. Although the signals from today's commercially-available RC 
        controllers are not encrypted or authenticated, the UAV is 
        paired with the RC controller in such a way that the two agree 
        on a communications channel selected from a large number (e.g., 
        100) of possible channels. Thus, to appropriate the RC link, a 
        defender would need to determine at least: (1) Which 
        communications protocol is being used (e.g., DSSS or FHSS), (2) 
        which channel within the protocol is being used.
    2. Although the command and data link to the control station is not 
        typically encrypted or authenticated, it can be encrypted with 
        well-established cryptographic algorithms using openly 
        available software*, rendering appropriation of this link 
        difficult at best.
---------------------------------------------------------------------------
    * See, for example, http://phantommods.info/effect-on-wifi-
encryption-for-fpv-range/.
---------------------------------------------------------------------------
    3. To avoid the effects of command link jamming or appropriation, 
        an attacking UAV can simply transition to an autonomous 
        operational mode soon after takeoff, accepting no further 
        external commands.
3.2 GPS/GNSS Interference.--Virtually all modern commercial UAVs 
capable of autonomous flight exploit navigation signals from overhead 
GPS satellites. The UAV's satellite navigation receiver may also be 
capable of exploiting signals from other Global Navigation Satellite 
Systems (GNSS) such as the European Galileo system and the Russian 
GLONASS system. It is well-known that civil GNSS signals are weak and, 
to date, unencrypted and unauthenticated,\5\ although proposals exist 
to insert digital signatures into the broadcast GPS and Galileo 
navigation data streams.\6\ \7\ \8\ In the face of a deliberate UAV 
attack guided by GNSS signals, a defender could take advantage of the 
weak security of GNSS signals to confuse or commandeer the attacking 
UAV.
---------------------------------------------------------------------------
    \5\ T.E. Humphreys, ``Statement on the vulnerability of civil 
unmanned aerial vehicles and other systems to civil GPS spoofing.'' 
http://homeland.house.gov/sites/homeland.house.gov/files/Testimony-
Humphreys.pdf, July 2012.
    \6\ K.D. Wesson, M.P. Rothlisberger, and T.E. Humphreys, 
``Practical cryptographic civil GPS signal authentication,'' 
Navigation, Journal of the Institute of Navigation, vol. 59, no. 3, pp. 
177-193, 2012.
    \7\ A.J. Kerns, K.D. Wesson, and T.E. Humphreys, ``A blueprint for 
civil GPS navigation message authentication,'' in Proceedings of the 
IEEE/ION PLANS Meeting, May 2014.
    \8\ I.F. Hernandez, V. Rijmen, G.S. Granados, J. Simon, I. 
Rodriguez, and J.D. Calle, ``Design drivers, solutions and robustness 
assessment of navigation message authentication for the Galileo open 
service,'' in Proceedings of the ION GNSS+ Meeting, 2014.
---------------------------------------------------------------------------
3.2.1 Advantages
    1. Three-dimensional hostile control of a UAV via GPS deception 
        (spoofing) is possible: It has been demonstrated in the 
        laboratory and in a Government-supervised experiment at White 
        Sands Missile Test Range.\4\
    2. Even if the location of an incoming UAV is known only very 
        approximately (e.g., it is only known that a UAV is approaching 
        the White House grounds from the southwest), GPS deception can 
        be effective at repelling an attack. If one sectorizes the area 
        around the site to be protected into 4 quadrants, each quadrant 
        covered by a directional transmission antenna, then a UAV 
        approaching under GPS guidance, or a group of UAVs, can be made 
        to believe it has overshot its target, causing the UAV to slow 
        and eventually proceed away from the target site as if facing a 
        stiff headwind. The University of Texas Radionavigation 
        Laboratory recently demonstrated this defense in the laboratory 
        against the GPS receiver used in a large number of commercial 
        UAVs.
    3. Persistent and powerful GNSS jamming would force attackers to 
        operate either by: (1) Line-of-sight (LOS) RC control, (2) 
        first-person viewer (FPV) control, or (3) non-GNSS autonomous 
        navigation. LOS control exposes the operator to visual 
        detection and recognition. LOS and FPV control can be denied by 
        control link jamming. And non-GNSS autonomous navigation in an 
        unmapped environment is either expensive (e.g., a navigation- 
        or tactical-grade INS initialized with GNSS), can only be 
        applied accurately over short time intervals (e.g., a MEMS-
        grade magnetometer-disciplined INS),\9\ or still in the 
        research stage (e.g., autonomous visual navigation).\10\
---------------------------------------------------------------------------
    \9\ O. Woodman, ``An introduction to inertial navigation,'' 
University of Cambridge, Computer Laboratory, Tech. Rep. UCAMCL-TR-696, 
2007.
    \10\ G. Chowdhary, E.N. Johnson, D. Magree, A. Wu, and A. Shein, 
``GPS-denied indoor and outdoor monocular vision aided navigation and 
control of unmanned aircraft,'' Journal of Field Robotics, vol. 30, no. 
3, pp. 415-437, 2013.
---------------------------------------------------------------------------
3.2.2 Drawbacks
    1. Persistent and powerful GNSS jamming would cause substantial 
        collateral damage, denying the use of civil GNSS in a wide area 
        around the protected site, which possibly encompasses 
        airports.\5\ Powerful GPS jamming around the White House, for 
        example, would deny GPS aiding to commercial aircraft at nearby 
        Reagan National Airport. Such jamming would alter civil 
        operational procedures in the area: Automobile commuters would 
        be denied use of their in-car navigation systems, cell towers 
        could no longer be synchronized by GPS, and approaches to 
        airports could no longer benefit from GPS for safety and 
        efficiency. While it is not out of the question to engage in 
        powerful GNSS jamming to protect extremely sensitive sites such 
        as the White House, it is the opinion of the author that this 
        would need to be a last resort. It would need to be carefully 
        coordinated with the DOT and DHS.
---------------------------------------------------------------------------
    \5\ T.E. Humphreys, ``Statement on the vulnerability of civil 
unmanned aerial vehicles and other systems to civil GPS spoofing.'' 
http://homeland.house.gov/sites/homeland.house.gov/files/Testimony-
Humphreys.pdf, July 2012.
---------------------------------------------------------------------------
    2. Even intermittent GNSS jamming powerful enough to deny UAV use 
        of GNSS would be problematic for the surrounding civil 
        infrastructure. UAV GNSS receivers are typically high-
        sensitivity receivers capable of operating at carrier-to-noise 
        ratios (CNRs) as low as 15 dB-Hz (e.g.,\11\). By contrast, the 
        GPS receivers used in commercial aviation typically fail to 
        track signals below a CNR of 29 dB-Hz. Therefore, to 
        effectively jam a UAV located 1 km from the White House would 
        require a jamming power that would also effectively deny GNSS 
        to a commercial aircraft along the same line of sight more than 
        5 km from the White House.
---------------------------------------------------------------------------
    \11\ u-Blox, Datasheet: NE0-6 GPS Module.
---------------------------------------------------------------------------
    3. GNSS spoofing would potentially be even more damaging to 
        surrounding civil systems than GNSS jamming, and thus would 
        need to be carefully coordinated with the DOT and DHS. 
        Moreover, to be absolutely reliable, a GNSS spoofer would have 
        to create simulated signals for all available civil GNSS, 
        including Galileo and GLONASS.
    4. An attacking UAV can simply disregard GNSS signals during the 
        final approach to the target, relying, for example, on a low-
        cost magnetometer-disciplined MEMS-grade inertial navigation 
        system, which, over a 60-second interval, may only exhibit a 5-
        meter drift in perceived location.\9\
---------------------------------------------------------------------------
    \9\ O. Woodman, ``An introduction to inertial navigation,'' 
University of Cambridge, Computer Laboratory, Tech. Rep. UCAMCL-TR-696, 
2007.
---------------------------------------------------------------------------
                          4. kinetic defenses
    Kinetic defenses encompass all techniques that involve mechanical 
contact with the UAV intruder such as interceptor UAVs, rubber bullets, 
shotgun shot, or nets.
4.0.3 Advantages
    1. Net capture of UAVs by interceptor UAVs has been demonstrated 
        (though it cannot yet be considered a mature technology). Net 
        capture has the additional benefit of enabling eviction of the 
        intruder UAV from the vicinity of the site to be protected.
    2. Commercial UAVs are, in general, fragile in the face of kinetic 
        attacks.
4.0.4 Drawbacks
    1. All kinetic defenses require reliable detection and accurate 
        tracking of the UAV intruder.
    2. Hard-contact kinetic defenses such as collision with an 
        interceptor UAV may cause an intruder UAV carrying an explosive 
        payload to explode.
    3. Interceptor UAV technology is currently immature.
                           5. acknowledgments
    The author is grateful to Mark Psiaki, Christopher Hegarty, Andrew 
Kerns, Nathan Green, Michael Szmuk, and Daniel Shepard for insightful 
conversations on how to protect critical civil sites from UAV 
intrusion.

    Mr. Perry. Chairman thanks Dr. Humphreys.
    Chairman now recognizes Mr. Roggero for his testimony.

 STATEMENT OF MAJOR GENERAL FREDERICK F. ROGGERO, (USAF-RET.), 
  PRESIDENT AND CHIEF EXECUTIVE OFFICER, RESILIENT SOLUTIONS, 
                              LTD.

    General Rogerro. Thank you very much, Mr. Chairman, and 
thank you for the opportunity to appear before you today, 
Ranking Member Watson Coleman and Ranking Member Thompson, 
ladies and gentlemen.
    Aviation is undergoing a global revolution as we sit here 
today. With advances in unmanned technologies that are moving 
ahead at the speed of Moore's Law, as you have indicated 
already, while associated prices are continue to fall, small, 
unmanned aerial systems have become high-tech and universally 
available tools.
    Coupled with advances in autopilots, telemetry, sensor and 
camera miniaturization, small UASs are delivering capabilities 
that were once only the purview of nation states. Now almost 
anyone can experience the advantages of thrills of aviation 
without ever having to leave the ground, taking a flight 
physical, or getting a check ride.
    As these barriers to entry continue to fall, we are 
witnessing the democratization of aviation.
    These new technologies give individuals a limited version 
of the unique characteristics of aviation--speed, range, 
flexibility, and altitude--that are enjoyed by every air force 
in the world. It is true that small UASs are capable of making 
our lives better by helping us to imagine more, safer ways to 
do our jobs that are dangerous, dull, and dirty. But they are 
also a terrific means to enhance commerce, save lives, gain 
different perspectives, and even to provide recreation.
    But as with all revolutions, there are risks that must be 
dealt with, and the safety and security risks of small drones 
are no exception. However, as the risk of these types of 
aircraft are reviewed, we must strive to preserve and to 
protect the overwhelming benefits that this rapidly-expanding 
technology will bring for generations to come.
    The risks inherent in this revolution can be divided into 
two parts: Safety and security. Safety because we have a 
growing class of new operators who don't understand that they 
have just become part of the aviation system and are flying a 
piece of equipment that is capable of operating in the same 
space as an airliner. But this type of safety risk can and 
should be dealt with through a public campaign of education, 
regulation, and enforcement.
    Next are those small UAS operators that know the rules but 
decide to violate them anyway. It is operators from this class 
that will most likely cause the first collision between an 
aircraft and a drone in the United States. But once again, 
public awareness; standard, clear regulations; firm penalties; 
and enforcement are the best remedies to slow these types of 
transgressions.
    At this point we move into the security risks. Tasks such 
as intelligence gathering, surveillance, reconnaissance, 
attack, and mobility can all be conducted with easily available 
UASs at very reasonable prices. These actions could be directed 
at National critical infrastructure points, factories, VIPs, 
and other examples, as we have heard this morning.
    Much work has already been done in this area of defense by 
our NATO partners, and we should take advantage of those 
developed solutions and lessons learned. For example, the 
United Kingdom took this threat so seriously in 2012 that the 
Royal Air Force and Selex ES designed and deployed an 
integrated counter-small UAS system in London to defend the 
Olympic Stadium during the opening ceremonies. This system was 
further improved and used to defend world leaders during the 
2013 G8 Summit in Ireland.
    Certainly the lessons learned from these efforts could 
inform our actions as we address these common threats.
    I believe that our way should be a simultaneous two-prong 
solution. First, use commercial, off-the-shelf technology that 
has already been developed, tested, refined, and used 
operationally in this role to establish a baseline capability 
for us immediately. By using a layered defense, the threat can 
be neutralized and the physical and electronic forensic 
evidence be preserved for arrest and prosecution.
    We should pick what works best for our needs, and I will 
refer you to my submitted statement for a listing of the 
elements that I believe are required for a multiple-layered, 
integrated UAS defense.
    The second simultaneous track starts with interagency 
cooperation to draft an overarching strategy and linked 
policies that have a legal and regulatory basis to deal with 
unmanned systems in general, and unmanned aerial systems in 
particular.
    Ranking Member Thompson, I would say that this strategy 
needs to be Government-wide and not just focused on DHS.
    This is where the departments and agencies will need to 
help to ensure that they have the legal framework necessary to 
respond to this threat.
    Furthermore, a single department should be nominated as the 
executive agent, and provided with the right resources and 
charged with leading this effort across the Government.
    In summary, my written statement provides several 
recommendations for consideration by the committee to tackle 
this problem, and by capitalizing on best practices and 
technology already applied by our international allies such as 
the United Kingdom, we could be ready to deal with today's 
threats immediately while we draft the correct policies and 
spin up U.S. industries, universities, and laboratories to 
rapidly explore ways to counter tomorrow's drones and the 
unique threats that they will bring in the next 2 to 5 years.
    Thank you very much.
    [The prepared statement of General Roggero follows:]
               Prepared Statement of Frederick F. Roggero
                             March 18, 2015
                        the current environment
    Aviation is undergoing a global revolution. With advances in 
unmanned system technology that are moving at the speed of ``Moore's 
Law,'' while their associated prices continue to fall, ``Class 1'' 
small, unmanned aerial systems (sUAS) have become high-tech, 
universally available tools. Coupled with advances in autopilots, 
telemetry, sensor and camera miniaturization, and corresponding 
increases in battery and engine capacities, sUAS's are delivering 
capabilities that were once only the purview of nation-states, 
corporations, and wealthy individuals. Now, almost anyone can 
experience the advantages and thrills of aviation without ever leaving 
the ground, taking a flight physical, spending hours and considerable 
funds to hone a skill, or complete a rigorous training and 
certification processes. As these barriers-to-entry continue to fall, 
we will witness the democratization of aviation.
    This combination of new, expanding, technologies delivers a limited 
version of the unique characteristics of aviation (speed, range, 
flexibility, and altitude) enjoyed by every air force directly to 
individuals and groups around the globe. And, as drone technologies 
improve, airpower concepts such as ``stealth'' and ``air supremacy'' 
could even become available to more common operators. It's true that 
sUAS's are capable of making our lives better by helping us to imagine 
new, more safe, ways to do jobs that are dangerous, dull, and dirty. 
They are also a terrific means to enhance commerce, save lives, gain 
different perspectives, and even to provide recreation. But, as with 
all revolutions, there are risks that must be dealt with. And, the 
safety and security risks of small drones are no exemption. However, as 
the risk of these types of aircraft are reviewed, we must also strive 
to preserve and protect the overwhelming benefits that this rapidly 
expanding technology will bring for generations to come.
    The risk inherent in the drone revolution can be divided into two 
sections--safety and security. Although the Academy of Model 
Aeronautics does a terrific job of providing voluntary safety 
standards, the exploding growth of this market means that many new 
recreational users of small drones simply do not understand that there 
is an aviation culture of safety. The days of the remote-control flying 
field with noisy gas motors and plenty of mentors is disappearing. The 
new group of ``park flyers'' haven't received education or training in 
safety, airspace, weather, air traffic control, emergency procedures, 
or even basic airmanship. Because of that, a few in this segment will 
eventually pose a safety hazard by unknowingly flying in areas that 
they are not allowed to operate, not out of malice, but because they 
simply do not understand the rules. But this type of safety risk can, 
and should, be dealt with through education, regulation, and 
enforcement.
    Next on the ladder of safety risk are those drone operators that 
know the rules but decided to violate them. Perhaps they feel the need 
to test out the new technology, to see how high, fast, or far it can 
go, or to obtain video from perspectives not allowed, usually for good 
reason. It is operators from this class that will most likely cause the 
first collision between an aircraft and a drone in the United States. 
But, once again, standard, clear regulation and enforcement are the 
best remedies for these types of transgressions.
    At this point, we move into the risks to our security. This 
revolutionary technology can be an affordable asymmetric tool for those 
who want to use its capabilities for illegitimate purposes. For less 
than $1,000 one could purchase a system that would allow you to conduct 
traditional ``air force'' missions, at limited, but still effective, 
levels of success. Tasks such as intelligence gathering, surveillance, 
reconnaissance, attack, and mobility can all be conducted with 
commercially-available systems. These actions could be directed at 
National critical infrastructure points, factories, VIPs, military 
bases, prisons, large public gatherings, the borders, or simply, a 
neighborhood.
                             the challenge
    The U.S. Government must be able to protect its sensitive critical 
infrastructure, personnel, and citizens from the malicious use of small 
drones, while preserving the best aspects of using small sUAS's 
commercially and recreationally. There will be a balancing act as we 
deter, mitigate, and defeat these types of security threats while 
preserving the benefits that sUAS's bring. Much work has already been 
done in this area by our international partners and allies and we 
should take advantage of those developed solutions and ``lessons 
learned.''
                               the threat
    Small UAS's are easy to make, cheap to buy, simple to fly, hard to 
detect, carry small versatile payloads, have a disruptive capability, 
and are evolving and proliferating quickly. ``Lone Wolves,'' activists, 
thieves, terrorist groups, etc. could use this reliable and inexpensive 
capability to conduct intelligence gathering or execute missions 
against a variety of targets using explosives, chemicals, powder, etc. 
to deliver a disruptive attack via a single aircraft, or through more 
sophisticated coordinated, or multi-platform, attacks. Since 2013 
smugglers have already tried to use the mobility capability of sUAS's 
to deliver 6.6 lbs. of crystal meth across the Mexico-U.S. border and 
to deliver tobacco and cell phones into a prison in Georgia and 
marijuana into a South Carolina prison.
    And, we are not the only country to feel this threat. A July, 2013, 
NATO Industrial Advisory Group, Study Group 170, ``Engagement of Low, 
Slow and Small Aerial Targets by Ground Based Air Defense,'' concludes 
that, ``If appropriate measures are taken in the near future it will be 
possible to significantly mitigate the threat that LSS [low, slow, 
small] platforms pose to any future military conflict or from the 
terrorist attack of national infrastructure.'' Other NATO study groups 
have jumped into this issue, but participation by U.S. companies and 
the Government in these on-going studies appears underrepresented.
    The United Kingdom took this threat so seriously in 2012 that the 
Royal Air Force, and Selex ES, designed and deployed an integrated 
counter sUAS system in London to defend the Olympic Stadium, 
particularly during the opening ceremonies. This system was further 
improved and used to defend world leaders during the 2013 G8 Summit in 
Enniskillen, Scotland, and, most recently, at the 2014 NATO Summit in 
Wales. Certainly, the lessons learned from these efforts should inform 
our actions as we address this common threat.
                    roadmap towards a u.s. solution
    Technology typically outstrips policies, and this technology has 
certainly stretched the capacity of the U.S. Government's bureaucracy 
to swiftly provide a counter drone strategy. Thus, we find ourselves 
behind in strategy, policy, and the technological capabilities needed 
to counter-sUAS's. Hence, this two-pronged problem requires a 
simultaneous, two-track solution.
    First, a search should be conducted to find technology that has 
already been developed, tested, refined, and used operationally. By 
using a combination of radar, networked electronic support measures, 
infrared, electro optical cameras, and engagement solutions of 
electronic attack, or hard kill options, the threat can be neutralized 
and the physical and electronic forensic evidence can be preserved for 
arrest and prosecution.
    This system should consist of an integrated network of multiple 
layered means of defense to find, fix, track, identify and classify, 
then engage and assess the result. It should also be designed for 
persistent, low-profile surveillance and be operational 24/7/365. This 
system should also incorporate a rapid decision-making process that can 
be used to quickly prosecute a response since one of the unique 
abilities of sUAS's is to quickly close on a target with little notice. 
The system must also possess a range of ``soft'' and kinetic responses, 
both with a high ``Probability of Kill.'' The counter system that is 
selected must also be able to capture and preserve the appropriate 
incident information that will inevitably be used for prosecuting the 
sUAS operators.
    Additionally, the system must be able to fully operate without 
interfering with security, law enforcement, or first responder networks 
and communications. Thus, the system must be able to comply with 
Federal Communication Commission rules, if not operating under special 
rules for highly sensitive areas. The system should also have a variant 
that is mobile (man-portable and air-transportable) for temporary 
setups. Of course, the system must be designed with open architecture 
in order to allow for spiral, scalable, and modular developments as 
drone technology continues to evolve (i.e., 5G LTE will almost 
immediately offer new capabilities to command and control drones). 
Finally, any system must be economically proportionate to the threat 
and available almost immediately.
    The second step of this two-pronged solution starts with 
interagency cooperation to draft an overarching strategy and linked 
policies that have a legal and regulatory basis to deal with drones. A 
single department or agency should be charged with leading this effort 
using the experiences and lessons learned from our international allies 
as they have already wrestled with these issues. In any case, it will 
take a joined effort across all Government departments since it will 
require navigating through current rules and regulations in the face of 
the unique capabilities of sUAS's and recommending changes to those 
base documents. For example, even though drones are unmanned, they are 
currently considered ``aircraft'' by the FAA and are protected by all 
of the laws and rules associated with manned flight when they are 
airborne. This is just one example of where current policy could 
severely limit options in reacting to a drone attack.
    Once formalized, the overarching goals of the strategy and 
individual policies would then lead to identifying the correct 
supporting tactics, techniques, and procedures needed to guide security 
and law enforcement personnel during their response to any threat. The 
goal, of course, is to mitigate the safety and security risks while 
steering this technology towards its positive and productive uses.
                            recommendations
    1. Draft a single strategy and supporting policies that clearly 
        guide Government agencies in regards to Rules of Engagement and 
        ensure that all responses are proportionate to the threat.
    2. Simultaneously work with allies and international partners to 
        discover ``lessons learned'' and best practices for solutions 
        to the counter-drone issue.
    3. Rapidly acquire proven technical solutions that can immediately 
        provide protection to National critical infrastructure and 
        personnel.
    4. Train and educate Federal law enforcement, and State and local 
        law enforcement, personnel on the legal uses of drones, and 
        potential threats.
    5. Conduct a campaign to educate the public (sUAS operators and 
        non-operators) on the use, and potential misuse, of drones.
    6. Work closely with commercial drone manufacturers to install geo-
        fencing and traceability codes into drones of specific 
        capabilities (i.e., size, weight, battery/motor size, flight 
        times, etc.)
    7. Draft appropriate legislation and regulations that govern the 
        registration, licensing, etc. of any manufactured, or home-
        built, drone that fall above a specified weight and/or 
        capabilities.
    8. Establish, and fund, an on-going research and development 
        program to devise counters to new drone technologies before 
        they widely appear in the marketplace.
    With last week's announcement by the Secret Service that the White 
House grounds would be used to conduct a series of exercises involving 
drones, it is clear the United States is not fully ready to deal with 
the threats that could come from this emerging technology today. 
However, there is a path to success. By capitalizing on ``best 
practices'' already discovered by our international allies, such as the 
United Kingdom, we could be ready to deal with today's threats 
immediately, while we draft the correct policies and spin up U.S. 
industries and laboratories to rapidly explore ways to counter 
tomorrow's drones and their unique, new, threats.

    Mr. Perry. Thank you, Mr. Roggero.
    The Chairman now recognizes Chief Beary for your testimony, 
sir.

     STATEMENT OF RICHARD BEARY, PRESIDENT, INTERNATIONAL 
                ASSOCIATION OF CHIEFS OF POLICE

    Chief Beary. Good morning, Chairman Perry and Members of 
the subcommittee. Thank you for inviting me to testify today on 
the potential threat posed by unmanned aerial systems.
    As president of the International Association of Chiefs of 
Police, commonly referred to as the IACP, and on behalf of our 
23,000 members in 98 different countries, I would like to thank 
you, Members of this committee, for the support you have 
demonstrated for law enforcement over the years. Our law 
enforcement community and our communities in general need your 
support. Thank you.
    The IACP is the world's largest association of law 
enforcement leaders, and for over 120 years the IACP has been 
launching internationally-acclaimed programs, speaking out on 
behalf of law enforcement, and conducting ground-breaking 
research. We provide services not only in the United States but 
across the globe.
    I began my law enforcement career in 1977 and, as the 
Chairman said, I have 30 years on the municipal side, and now I 
have almost 8 years on the university side of law enforcement. 
The University of Central Florida is the largest university in 
the State of Florida, and we are the second-largest in the 
United States.
    During my career I have watched the threats to our 
communities evolve. We still deal with the problem of violent 
crime, drugs, prostitution, smuggling, trafficking, and gangs, 
but we are now tasked in dealing with cyber threats, violent 
extremism, terrorism, and highly organized criminals with 
access to specialized equipment to aid them in their mission 
and to harm others and devastate our communities.
    Included in that specialized equipment are unmanned aerial 
systems. While UAS can be a great tool, they also pose a 
serious threat to the public and law enforcement when used by 
the wrong people.
    When used responsibly, and with good policies in place, UAS 
have enhanced law enforcement's ability to protect communities 
they serve. UAS has helped law enforcement agencies save time, 
save money, and, most importantly, save lives.
    They are ideal for dangerous or difficult situations, like 
executing high-risk warrants; responding to barricaded 
suspects; gaining situational awareness in difficult terrain; 
and enhancing officer safety by exposing unseen dangers; 
locating missing children; or responding to damage caused by 
emergencies such as natural disasters, downed power lines, or 
hazardous material incidents.
    Despite the undeniable benefits these systems can have, 
they also pose a grave threat to public safety. Almost anyone 
can obtain an unmanned aerial system these days. They can buy 
it off the shelf from Amazon, have it delivered in 2 days, 
charge the battery, and immediately begin flying the device.
    The fact that these devices are so readily available to the 
public is concerning. The average citizen that is purchasing 
these devices generally has no aviation experience and 
therefore does not think twice about operating in controlled 
airspace, over the public, or over a crowded beach or any other 
gathering--mass gathering. Nor do they think twice about 
launching a UAS to ascertain what the police or the fire 
department is working on up the street.
    This is a real danger to the public. Public safety and 
others regarding these aircraft have to be addressed. The 
average citizen simply does not know what they are doing wrong 
and the potential damaging effects that these devices can have 
when operated improperly.
    Recently we have witnessed several high-profile incidents 
with UAS. Of course, we talked about the crash landing at the 
White House, flying over sensitive locations, and near-miss 
with aircraft on a regular basis. At the University of Central 
Florida we have personally experienced these aircraft flying 
over mass gatherings, including football games, in violation of 
airspace restrictions that are in place to protect the public.
    The newest version of these devices are now flown in 
virtual reality mode, meaning that the operator does not need 
to be in the line of sight while flying the aircraft.
    Thankfully, at this point most of the incidents involving 
UAS have not lead to horrific events, but I don't think we are 
far away from one of those happening. The concerns are real. 
There is nothing to stop the criminal element from purchasing a 
UAS and using it to cause localized or catastrophic damage.
    I mentioned earlier that I am from Orlando, which is home 
to many, many theme parks. I can assure you they have major 
concerns about the safety of their guests, and they have 
numerous incidents of these devices flying over their airspace. 
They have a real fear that someone wants to harm a large amount 
of people who are attending their parks.
    Now, something as simple as a UAS were to fly into a park 
or a football stadium with something as simple as a smoke bomb 
could cause incredible panic, thus leading to major injuries 
for the people that are there.
    Again, these devices can be used to fly over restricted 
areas and to plan an attack.
    Because these devices are in their infancy, now is the time 
for the Federal Government and the Federal agencies to work 
with us and develop the guidelines so that law enforcement 
knows what to do. The Department of Homeland Security did 
provide my agency with a 2-page document on recommended UAS 
response procedures at our stadium. We got that late in the 
football season in November.
    While those things are nice, there is no detail in what do 
we do for the follow-up, how do we respond to these, who do we 
call for further information? We are not criticizing the 
Federal Government; this is our call for help. Law enforcement 
needs to know how you want us to respond to these and where we 
are going to go in the future.
    The lack of clear guidance and best practices has led to 
confusion among the law enforcement community when they are 
dealing with these. Almost every critical situation now, they 
are drones flying over top of law enforcement officers and 
interfering with our helicopter when we are trying to deal with 
these things.
    Again, since these devices do not have a transponder or a 
registration, it is difficult to track down and it is 
impossible, in many cases, to figure out where they came from.
    Without law enforcement knowing the proper procedures it 
leaves us vulnerable and makes our primary job of keeping the 
public safe more challenging.
    Ladies and gentlemen, I thank you for allowing me the 
opportunity to be here. I look forward to the questions.
    Again, I bring quite a bit of law enforcement experience to 
the table, and if you want to talk about the Justice report, 
wherever you want to go I am good to go. Thank you.
    [The prepared statement of Chief Beary follows:]
                  Prepared Statement of Richard Beary
                             March 18, 2015
    Good morning Chairman Perry and Members of the subcommittee: Thank 
you for inviting me to testify today on the potential threat posed by 
unmanned aerial systems. As president of the International Association 
of Chiefs of Police (IACP), and on behalf of our over 23,000 members in 
98 different countries, I would like to thank this committee and 
subcommittee for the support it has demonstrated over the years for the 
law enforcement field and our communities.
    The IACP is the world's largest association of law enforcement 
leaders. For over 120 years, the IACP has been launching 
internationally-acclaimed programs, speaking out on behalf of law 
enforcement, conducting ground-breaking research, and providing 
exemplary programs and services to the law enforcement profession 
around the globe.
    I began my law enforcement career in 1977, and I am now chief of 
police for the University of Central Florida, the largest university in 
the State and the second in the country. During my career, I have 
watched the threats to our communities evolve. We still dealing with 
the problem of violent crime, drugs, prostitution, smuggling/
trafficking, and gangs. We are now dealing with cyber threats, violent 
extremism, terrorism, and highly-organized criminals with access to 
specialized equipment to aid them in their mission to harm others and 
devastate our communities.
    Included in that specialized equipment are Unmanned Aerial Systems 
(UAS). While UAS can be a great tool they also pose a serious threat to 
the public and law enforcement when used by the wrong people. When used 
responsibly, and with good policies in place, UAS have enhanced law 
enforcement's ability to protect the communities they serve. UAS have 
helped law enforcement agencies save time, save money, and most 
importantly, save lives. They are ideal for dangerous or difficult 
situations like executing high-risk warrants; responding to barricaded 
subjects; gaining situational awareness in difficult terrain; enhancing 
officer safety by exposing unseen dangers; locating a missing child; or 
responding to the damage caused by emergencies such as natural 
disasters, downed power lines, or hazardous material incidents.
    Despite the undeniable benefits UAS can have, they can also pose a 
grave threat to public safety. Almost anyone can get ahold of an 
unmanned aerial system these days. You can buy an off-the-shelf product 
from Amazon, have it delivered in 2 days, charge the battery, and 
immediately begin flying the device. The fact that these devices are so 
readily available to the public is concerning. The average citizen that 
is purchasing these devices generally has no aviation experience, and 
therefore does not think twice about operating them in controlled 
airspaces, over the public or on a crowded beach. Nor do they think 
twice about launching a UAS to ascertain what the police or fire 
department is working on up the street. This is the real danger to the 
public, public safety, and others regarding these aircraft. The average 
citizen simply does not know what they are doing wrong and the 
potential damaging effects these devices can have if not operated 
properly.
    Recently we have witnessed several high-profile incidents with 
UAS--crash landing on the White House lawn, flying over sensitive 
Federal buildings or locations, or having near-miss incidents with an 
aircraft. At the University of Central Florida, we have experienced 
these aircrafts flying over mass gatherings, including football games, 
in violation of airspace restrictions. The newest version of these 
devices are flown in virtual reality mode, meaning the operator does 
not need to be in the line of sight while flying the craft.
    Thankfully, at this point, most of the incidents involving UAS have 
not lead to horrific events, but I don't think we are far away from 
seeing more incidents involving unmanned aerial systems that lead to 
tragedy. The concerns out there are real. There is nothing to stop the 
criminal element from purchasing a UAS and using it to cause localized 
or catastrophic damage. I mentioned earlier that a local theme park has 
witnessed UAS flying over the park. They have the real fear that 
someone who wants to harm a large amount of people could use a UAS to 
do this. If a UAS were to drop something as simple as a smoke bomb down 
on a theme park or during a football game, think of the panic that 
could ensue. These devices can also be used to fly over sensitive areas 
and gather information for a planned attack; to disperse a chemical/
radiological agent; and to conduct an explosive attack.
    Because the use and availability of UAS in its infancy, the 
guidance around how law enforcement agencies should respond to and 
mitigate potential UAS threats is relatively nonexistent. The Federal 
Aviation Administration (FAA) has issued guidance to the law 
enforcement community explaining the legal framework for the agency's 
oversight of aviation safety in the United States, including UAS 
operations, how UAS can be operated legally, and the options for legal 
enforcement actions against unauthorized or unsafe UAS operators. The 
Department of Homeland Security did provide my agency with a 2-page 
document on recommended UAS response procedures at our stadium. The DHS 
guide includes recommended response to a UAS in a stadium and outside a 
stadium, potential illicit uses of a UAS, recommended pre-event 
measures, and a brief overview of the FAA guidelines. Other than those 
two documents, law enforcement has had little guidance on response 
procedures. This is not a criticism to our Federal agency partners, it 
is a call for help.
    The lack of clear guidance and best practices has led to confusion 
among the law enforcement community regarding about what law 
enforcement is allowed to do when they encounter a UAS. Tactical 
guidance needs to be provided on the proper measures to take.
    Since these devices do not have a transponder device, registration 
number, or other mechanism to track them, it makes them next to 
impossible to identify when they are flown or who is flying them. What 
steps can we take to identify UAS and the operators of these devices? 
If we see a device being flown somewhere it should not be, can we bring 
it down? These questions only scratch the surface, and many of my 
fellow law enforcement officers are asking themselves these tough 
questions.
    Without law enforcement knowing the proper procedures that need to 
occur, it leaves us vulnerable and makes our primary job of keeping the 
public safe from harm more challenging.

    Mr. Perry. Thank you, Chief Beary.
    The Chairman now recognizes Dr. McNeal for your testimony, 
sir.

STATEMENT OF GREGORY S. MC NEAL, ASSOCIATE PROFESSOR, SCHOOL OF 
                   LAW, PEPPERDINE UNIVERSITY

    Mr. McNeal. Chairman Perry, Ranking Member Watson Coleman, 
Ranking Member Thompson, and Members of the committee, thank 
you for hosting this hearing and inviting me to testify.
    The emergence of unmanned aerial vehicles in domestic skies 
raises understandable concerns that may require employment of 
mitigation technologies by law enforcement or security 
personnel. However, before any funds are expended on such 
technologies, agencies should engage in comprehensive risk 
assessment to identify the probability of that harm, the 
magnitude of a potential harm, benefits of security measures, 
and the cost of those measures. We have to bear in mind that 
one of the significant costs is that the vast majority of 
drones will be used for economically and socially beneficial 
purposes, and we have to remain cognizant of that at all points 
in time.
    This testimony outlines four key issues that Congress 
should remain cognizant of when drafting legislation or 
overseeing the Department of Homeland Security.
    First, Congress should ensure that agencies are 
distinguishing between possible threats, which we can all sit 
around and imagine, and probable threats. Congress should also 
ensure that agencies are avoiding fear-based appeals that might 
drive the policymaking process.
    Drones are an exciting topic. They capture the attention of 
the media. Oftentimes that drives agencies to feel like they 
need to do something, to look like they are responding.
    The recent attention for drones, though, oftentimes appears 
to be driven by this type of media attention. I say this 
because while remote control aircraft are seemingly new, they 
have, in fact, been around for decades.
    Furthermore, the small quadcopters that have been gathering 
so much attention lately due to their ease of use would also be 
the least useful to a dedicated attacker. Rather, larger, 
faster, and heavier systems exist, and these systems have 
existed for many years. Many of those systems can be home-
built, and in the hands of a dedicated attacker they will be 
very difficult to stop.
    Given the complexity of the threat picture, we must ensure 
that agencies do not fall victim to the sensationalism that 
drives worst-case scenario-based planning. Such an approach to 
risk management can justify enormous expenditures no matter how 
unlikely the prospects are that the event will take place.
    We should avoid focusing only on the extreme but 
improbable, and rather, we should do the best that we can to 
focus on the probable and assess the magnitude of the potential 
harm that might flow from those.
    Second, Congress should ensure that agencies are assessing 
risk by not only looking at that probability of a successful 
attack, but also the magnitude of losses. Congress should 
ensure that every agency action related to an alleged homeland 
security risk from drones is preceded by a risk assessment. 
That is the first step in any managerial decision about 
potential threats. Across homeland security, any time we are 
looking at threats it should be preceded by looking at the risk 
before we immediately begin expending funds.
    A risk assessment is that first step and ensures that 
agencies make hard choices with limited resources. Every 
possible threat cannot be guarded against; therefore, agencies 
have to focus on the riskiest threats.
    Third, Congress should ensure that before any funds are 
spent agencies are also engaged in a formal cost-benefit 
analysis. The employment of mitigation technology against risk 
cannot take place in a vacuum. Rather, it requires agencies to 
consider the degree to which a security measure is likely to 
deter, disrupt, or protect against a terrorist attack.
    The reality is that implementing security measures across 
all--across the Federal Government will require aggregating the 
costs across thousands of facilities. How to allocate those 
scarce resources will require prioritization driven by risk 
assessments, and this brings me to my final point.
    Congress should ensure that specific individuals at the 
Department of Homeland Security are responsible for conducting 
these analyses and reporting their methodology. Congress may 
also want to provide funds to the Centers of Excellence for an 
independent check on how agencies are conducting these 
assessments.
    Given the complexity of the risk assessment picture 
associated with drones and their potential to pose a homeland 
security threat, I am certain that DHS and agencies are working 
on this. I am sure many people are working on this. In fact, 
that might be part of the problem is that in every--in each 
stovepipe across agencies, various individuals might be working 
on the threat but there is not a single point of coordination.
    So Congress should direct that a specific individual or an 
office within DHS take the interagency lead on this. There is 
some precedent for this. Back in 2004 homeland security stood 
up an office known as the Counter-MANPADS System Program 
Office. This was the office that assessed whether or not there 
was a threat to commercial aviation from man-portable surface-
to-air missiles.
    It was a temporary office that assessed the threat; after 
assessing the threat, providing some recommendations, it went 
away.
    We could stand up a similar office about emerging threats. 
Or in the alternative, what we could do is we could designate 
that the under secretary for National Protection and Programs 
Directorate lead a threat assessment process for drones 
specifically, or for emerging threats in general.
    The emergence of unmanned aerial vehicles in domestic skies 
raises understandable concerns, but before any funds are 
expended on such technologies--mitigation technologies, the 
Department should engage in a comprehensive risk assessment to 
identify the probability of harm, magnitude of harm, benefits 
of security measures, and the direct and indirect costs of 
those security measures.
    Thank you.
    [The prepared statement of Dr. McNeal follows:]
                Prepared Statement of Gregory S. McNeal
                             March 18, 2015
                              introduction
    The emergence of unmanned aerial vehicles in domestic skies raises 
understandable concerns that may require employment of mitigation 
technologies. However, before any funds are expended on such 
technologies, the Department of Homeland Security should engage in a 
comprehensive risk assessment to identify the probability, magnitude of 
harm, benefits of security measures, and cost of those measures. This 
testimony outlines four key issues that Congress should remain 
cognizant of when drafting legislation and/or overseeing the activities 
of the Department of Homeland Security.
                            recommendations
    (1) Congress should ensure that agencies are distinguishing between 
possible threats and probable threats; Congress should also ensure that 
agencies are avoiding fear-based appeals focused on worst-case 
scenarios: Drones are an exciting topic that captures the interest of 
journalists and the public. The popular attention associated with 
drones has the benefit of raising awareness about their potential uses, 
however it also raises the possibility that emotions and sensationalism 
will drive the crafting of public policy.
    For example, after a recreational drone crashed on the White House 
lawn, ``security experts'' appeared on CNN to discuss the possibility 
that a drone might be equipped with explosives or weapons of mass 
destruction. This is a highly unlikely scenario. While consumer drones 
are readily available, lightweight explosives and weapons of mass 
destruction are not. Even if terrorists were able to procure explosives 
or WMD, using a consumer drone to conduct an attack would be one of the 
least effective means of carrying out an attack. Nevertheless, the 
Secret Service and other agencies seem to be planning for ``possible'' 
worst-case scenarios. Such an approach shifts the policy debate away 
from probability and creates demands for substantial Governmental 
responses even when the risk does not warrant the response.\1\
---------------------------------------------------------------------------
    \1\ Sunstein, Cass R. 2003. Terrorism and Probability Neglect. 
Journal of Risk and Uncertainty (26) (2-3) March-May: 121-136.
---------------------------------------------------------------------------
    Congress must ensure that agencies do not fall victim to the 
sensationalism that drives worst-case scenario-based planning. Such an 
approach to risk management can justify enormous expenditures, no 
matter how unlikely the prospects are that the dire event will take 
place. As security analyst Bruce Schneier has written, focusing on the 
worst possible outcome ``substitutes imagination for thinking, 
speculation for risk analysis, and fear for reason.''\2\ It substitutes 
ill-informed possibilistic thinking over careful, well-reasoned, 
probabilistic thinking, forcing us to focus on what we don't know, and 
what we can imagine, rather than what we do know. ``By speculating 
about what can possibly go wrong, and then acting as if that is likely 
to happen, worst-case thinking focuses only on the extreme but 
improbable risks and does a poor job at assessing outcomes.''\3\
---------------------------------------------------------------------------
    \2\ Schneier, Bruce. 2003. Beyond Fear: Thinking Sensibly about 
Security in an Uncertain World. New York: Copernicus.
    \3\ Id.
---------------------------------------------------------------------------
    Congress should ensure that agencies are as concerned with the 
probability of harm as they are of the possibility of a worst-case 
scenario. This requires paying attention to the ``spectrum of threats, 
not simply the worst one imaginable, in order to properly understand 
and coherently deal with the risks to people, institutions, and the 
economy.'' While public attention to the issue of drones may create a 
sense of urgency amongst members of the public and some agency 
officials, this ``does not relieve those in charge of the requirement, 
even the duty, to make decisions about the expenditures of vast 
quantities of public monies in a responsible manner'' that is 
disconnected from emotions and focused on probabilities.\4\
---------------------------------------------------------------------------
    \4\ Mueller, John and Stewart, Mark G. 2011. Terror, Security, and 
Money. New York: Oxford University Press.
---------------------------------------------------------------------------
    (2) Congress should ensure that agencies are assessing risk by 
calculating both the probability of a successful attack and the 
magnitude of losses that might be sustained in a successful attack: 
Congress should ensure that every agency action related to an alleged 
homeland security risk from drones is preceded by a risk assessment. 
Assessing risks is the first managerial step in decision making about 
potential threats, and it is one that is readily subject to 
Congressional oversight. Forcing agencies to conduct a risk assessment 
is the first step toward ensuring that agencies efficiently and 
effectively use taxpayer funds and control costs. A risk assessment is 
also the first step toward ensuring that agencies make hard choices 
with limited resources--every possible threat cannot be guarded 
against, therefore agencies must focus on the riskiest threats.
    ``Risk is the expected consequences of a terrorist attack, and the 
accepted definition of risk as applied in the terrorism context, is 
Risk = (probability of a successful attack)  (losses sustained in the 
successful attack).''\5\ Probability of successful attack in this 
context is the likelihood of a successful terrorist attack using a 
drone if the security measure were not in place. On the probability 
side of the equation, the benefits of drones are that they allow an 
adversary to control delivery of an attack from a distance, perhaps 
solving some operational problems (like risk of capture) that 
terrorists may face in planning and mounting an operation. However, 
they introduce complexity into the attackers operation that may 
decrease the likelihood of a successful attack. The clear advantages of 
drones are that they allow for: (1) Attacks over perimeter defenses, 
(2) multiple simultaneous attacks without directly risking attacker 
personnel, (3) better surveillance capabilities. However, the 
probability of a successful attack may also go down when an attacker 
chooses to use a drone. In fact, one RAND/Defense Threat Reduction 
Agency study found:
---------------------------------------------------------------------------
    \5\ Id.

``[UAVs] do not appear to have major advantages over other ways of 
carrying out operations against similar targets, although they cannot 
be dismissed outright as a potential threat. Where they did appear 
preferable, the choice for these systems was driven by the actions of 
the defense or in place security measures--i.e., were alternative 
attack modes foreclosed by defenses or did concerns about a potentially 
compromised plan push the attacking group farther away from its desired 
targets? The price of these advantages was, however, greater 
complexity, technological uncertainty, and higher cost and risks 
associated with these platforms. Consequently, rather than being an 
attack mode likely to be widely embraced by such actors, UAVs . . . 
appear to represent a `niche threat'--potentially making some 
contribution to the overall asymmetric and terrorist threat . . . UAVs 
do provide some advantages to an attacker, but in most cases there are 
simpler alternatives that provide similar, or even superior, 
capabilities.''\6\
---------------------------------------------------------------------------
    \6\ Jackson, Brian A. et.al. 2008. Evaluating Novel Threats To The 
Homeland, RAND.

    Losses sustained in the successful attack in this context include 
the fatalities and other damage (both direct and indirect) that will 
accrue as a result of a successful terrorist attack employing a 
drone.\7\ This part of the calculation takes account of the value and 
vulnerability of people and infrastructure, as well as any 
psychological and political effects. Thus, agencies engaging in an 
analysis of risk must separate the probability that an attack will be 
successful if committed using a drone (the subject of the preceding 
paragraph) from the magnitude of harm that would flow from that 
particular attack if it were successful.
---------------------------------------------------------------------------
    \7\ Mueller, John and Stewart, Mark G. 2011. Terror, Security, and 
Money. New York: Oxford University Press.
---------------------------------------------------------------------------
    Thus the prior factor, probability of successful attack, would 
address the low likelihood that an attacker would be able to acquire 
explosives or WMD, and the decreased likelihood of success with 
explosives or WMD when using a drone versus alternative methods (like 
delivering from a manned aircraft, a vehicle, or carried by a person). 
Whereas the losses sustained factor assumes the scenario analyzed 
probabilistically is successful, and looks to what harms would then 
flow. In the context of drones, this will requiring gathering 
information about the payload capabilities of various systems (if 
assessing a threat from explosives), or the dispersal capability of 
various systems (if assessing a threat from WMD). What analysts will 
likely find is that the low payload capabilities of drones will reduce 
the direct losses sustained from an attack, however the propaganda 
value associated with a drone attack may increase the indirect costs 
(such as psychological, economic, and political effects) associated 
with their use.
    Taken together, the probability of a successful attack employing a 
drone multiplied by the losses sustained in the successful attack will 
tell agencies what the risk from drones is. From there agencies, guided 
by Congress, can determine whether the risk is acceptable. If the risk 
is unacceptable, then agencies should adopt mitigation, risk reduction, 
and security measures to reduce the risk to an acceptable level--
remaining cognizant of the fact that such measures have costs (the 
subject of the next section).
    (3) Congress should ensure that before any funds are spent on 
security measures, agencies engage in risk assessment and a formal 
cost-benefit analysis using best practices: The employment of 
mitigation technology against risks cannot take place in a vacuum. 
Rather, it requires agencies to consider the degree to which a security 
measure is likely to deter, disrupt, or protect against a terrorist 
attack. Mitigation technologies are thus a benefit that can reduce risk 
(as calculated in the prior section).\8\ To determine the benefit of a 
security measure, agencies should make the following calculation: 
Benefit of a security measure = (probability of a successful attack)  
(losses sustained in the successful attack)  (reduction in risk 
generated by the security measure).\9\
---------------------------------------------------------------------------
    \8\ Id.
    \9\ Id.
---------------------------------------------------------------------------
    The first two factors in this equation are identical to those 
calculated earlier, while the reduction in risk factor is a degree, or 
percentage factor. In the context of drones, reductions in risk may 
come from greater surveillance of areas near airports where drones 
might pose a risk to commercial aircraft, or it may be specific 
technologies designed to jam the communication links between drones and 
their operators. But all of the likely risk reduction security measures 
will have costs, and sometimes those costs may be significant. Thus, 
the costs will need to be compared to the benefit of a security 
measure. A hypothetical will help illustrate this analytical process.
Hypothetical
    FACTS: Assume that in a 10-year span of time we believe there is a 
chance of one successful attack by an explosives-laden drone against a 
Federal facility (a 10% yearly chance). Suppose further that we believe 
an attack will result in 1 death (valued at $10 million, an admittedly 
high estimate), and significant psychological and economic damage 
(valued at $50 million, an admittedly high estimate). For this 
hypothetical the total losses from such an attack amount to $60 
million.
    RISK: The yearly risk from such an attack is thus the (probability 
of a successful attack .10)  (losses sustained in a successful attack 
$60 million) = $6 million.
    BENEFIT OF SECURITY: Now assume that a security system can be 
installed that cuts the probability of a successful attack by 50%. Such 
a system might be a combination of cameras, sensors, and jamming 
equipment that allows for detection of a drone and the jamming of the 
drone's control link.
    The yearly benefit of the security measure is the reduction in risk 
associated with its employment, which is thus the (probability of a 
successful attack .10)  (losses sustained in a successful attack $60 
million)  (reduction in risk generated by the security measure .50) = 
$3 million.
    IS THE COST OF SECURITY WORTH IT?: To determine whether the cost of 
such a security system is worth the expenditure of taxpayer dollars, we 
must compare the costs to the benefits. If the cost of cameras, 
sensors, and an interdiction system for drones in this hypothetical 
were less than $3 million, the benefits would outweigh the costs, and 
it would be a cost-effective security measure.
    Importantly, this hypothetical calculation only takes account of 
the security measures being implemented at one Federal facility. The 
reality is that implementing such measures across the Federal 
Government will require aggregating the costs across thousands of 
facilities. How to allocate those scarce resources will require 
prioritization, driven by risk assessments (as explained above), and 
will require the identification of a specific individual or office 
within the Department of Homeland Security responsible for coordinating 
interagency efforts to conduct risk assessments.
    (4) Congress should ensure that specific individuals at the 
Department of Homeland Security are responsible for conducting these 
analyses and reporting their methodology. Congress may also want to 
provide funds to the Centers of Excellence for an independent 
evaluation of threats: Given the complexity of the risk assessment 
picture associated with drones and their potential to pose a homeland 
security threat, Congress should direct that a specific individual or 
office within the Department of Homeland Security assume responsibility 
for generating threat assessments.
    There is some precedent for this type of managerial approach. In 
2004, the Department of Homeland Security initiated a $100 million 
program to evaluate whether civilian aircraft should be equipped with 
countermeasures to defeat the threat of man-portable surface-to-air 
missiles. The program was directed by Congress as a means to evaluate 
whether Congress should require that some or all U.S. commercial 
airliners install such devices. At the time, the office within DHS was 
known as the Counter-MANPADS System Program Office. Congress could 
create a similar temporary office within DHS for the purpose of 
evaluating the threat posed by unmanned aircraft. In the alternative, 
Congress could direct the under secretary, National Protection & 
Programs Directorate to lead and staff a similar effort within DHS and 
make the under secretary the lead Federal official for interagency 
efforts.
    Additionally, Congress may want to consider requesting the support 
of the Department of Homeland Security Centers of Excellence. These 
university-based research centers can engage in terrorism risk analyses 
that will supplement the work of DHS. Such outside research may provide 
an independent check on the interests of Government agencies that may 
adopt or promote drone countermeasures as a means to ensure the 
continued relevance of their office or to justify increased budgetary 
outlays.\10\
---------------------------------------------------------------------------
    \10\ For an example of such mismanagement, see GAO Report, DOD 
Needs Strategic Outcome-Related Goals and Visibility over Its Counter-
IED Efforts available at: http://www.gao.gov/assets/590/588804.pdf.
---------------------------------------------------------------------------
                               conclusion
    The emergence of unmanned aerial vehicles in domestic skies raises 
understandable concerns that may require employment of mitigation 
technologies. However, before any funds are expended on such 
technologies, the Department of Homeland Security should engage in a 
comprehensive risk assessment to identify the probability, magnitude of 
harm, benefits of security measures, and cost of those measures.

    Mr. Perry. Thank you, Dr. McNeal.
    The Chairman now recognizes himself for a few questions. I 
will start out with General Roggero.
    According to a January 2015 Wall Street Journal article, 
counterterrorism authorities in the United States, Germany, 
Spain, and Egypt stated that six potential terrorist plots 
involving drones had been foiled since 2011. Can you describe, 
if you know, the types of capabilities of the UAS that these 
groups were using or planning to use?
    General Rogerro. Sir, I am sorry about that.
    Mr. Perry. Sure.
    General Rogerro. No, sir, I am not familiar with the 
technology that they used in that particular case.
    Mr. Perry. Okay.
    Anybody else on the panel, just in case?
    Yes, sir, Dr. Humphreys.
    Mr. Humphreys. I do know that commercial off-the-shelf 
technology, when modified, is perfectly capable of carrying out 
those kind of attacks. In fact, even as we speak, in Ukraine 
the conflict is involving off-the-shelf drone hardware modified 
for that conflict, for surveillance and even weaponized drones.
    So it is probably the case that they were using an open-
source autopilot and off-the-shelf hardware.
    Mr. Perry. So surveillance is pretty simple. You mount a 
camera, or you can buy one with a camera mounted.
    Dr. Humphreys or General Roggero, can you talk to us about 
the weaponization or other potential nefarious means--to be 
combative or proactive in a militaristic style?
    Mr. Humphreys. Right now surveillance is being used in 
Ukraine to guide mortar shelling.
    Mr. Perry. Okay.
    Mr. Humphreys. So it can be, you know, part of the lethal 
chain.
    Mr. Perry. Sure.
    Mr. Humphreys. But beyond that you can, of course, insert 
in the battery compartment some explosives. Many of these 
drones can carry a couple of pounds easily.
    Of course, if your intention is to cause panic, as was 
mentioned earlier, all you have to do is drop a smoke bomb and 
you can cause that kind of panic.
    General Rogerro. So there are other things that you can do 
with that, as well. Mobility is one.
    For example, in Congressman Loudermilk's State, delivering 
marijuana and cell phones into prisons has been attempted. I 
believe just a few weeks back there was 6\1/2\ pounds of 
crystal meth being delivered across the border from the Tijuana 
area into San Ysidro. So certainly smuggling is an activity 
that is being seen out there with these particular devices.
    But certainly intelligence-gathering, surveillance, and 
reconnaissance is the top priority and the easily done thing 
with these drones. We have also seen ISIS use it very 
effectively to do propaganda and broadcast after an attack, as 
well, to use these devices to gain their images that they need 
to put out on the web.
    Mr. Perry. Okay. Thank you.
    To Professor McNeal: As we have discussed today, the UAS 
can be used for a variety of malicious purposes and therefore 
present a multitude of potential threats. The DHS will often 
prepare risk assessments in the face of threats such as these 
to ensure all relevant stakeholders are taking all possible 
steps to mitigate the threat.
    Which areas do you perceive the threats are most pressing 
and why, if you know?
    Mr. McNeal. It is difficult to answer that question without 
a direct view of the intelligence picture, but let me answer it 
in a general way and--which sort of focuses on the capabilities 
of UAVs and how I think the threat assessment process should 
approach it.
    Really, UAVs provide three distinct advantages. They allow 
for attacks over perimeter defenses, and so when you think of 
the hardening that we did for Federal facilities after 9/11 and 
after the Oklahoma City bombings, now the enemy is able to 
attack beyond--over those perimeter defenses. If you have an 
area that is intended to be secure, either from observation or 
from personnel trafficking through, because you have fences, 
UAV obviously can get over that.
    Second, better surveillance capabilities, which we have 
already discussed. It gives a different vantage point.
    Then third, also allows the possibility of multiple 
simultaneous attacks or multiple disruptive attacks. So if you 
have a gathering--a crowded gathering, as Chief Beary 
mentioned, you might--if I were an attacker I might send in 
multiple drones with smoke bombs to create--to get people moved 
from a secure perimeter to outside of a secure perimeter where 
I might engage in an attack.
    All these things, of course, are possibilities that you 
could do as an individual on the ground. In fact, the 
limitation of UAVs is the payload. So the typical UAV might be 
able to carry 5 pounds of explosives. You could have one that 
carries more than that, but you are really starting to get into 
more sophisticated systems.
    Whereas a person can carry 20 pounds of explosives if they 
are--if they bring it in on a backpack. They don't have to be a 
suicide bomber; they could leave it in a facility. Of course, 
we can mitigate that with security checks.
    So the security threat picture needs to balance not only 
the capabilities that the enemy gets by using this in an attack 
factor, but then also some of the limitations on it. That is 
why I say that we need a comprehensive process to assess each 
threat across each facility in each type of scenario.
    Mr. Perry. Thank you. My time is expired.
    The Chairman now recognizes the Ranking Member, Mrs. Watson 
Coleman, for questions.
    Mrs. Watson Coleman. Thank you very much, Mr. Chairman.
    Thank you very much for your testimony. One thing that you 
all have raised in my mind is that there is this sort of drone 
capacity from the tiniest to the biggest. So I need to know 
what I should be worried about.
    The drone that could possibly create a threat, whether or 
not it is, you know, disseminating some gas or some 
weaponization or whatever, what is the smallest drone, and what 
is the average cost of that type of drone? Because I am trying 
to figure out what don't we bother ourselves with.
    I don't even know who can answer that, but if anyone of you 
want to take a shot at it----
    Mr. Humphreys. I will jump in first. I bought a drone for 
my son for Christmas that was no bigger than my hand. I don't 
think we have to worry about that one.
    But we do have to keep in mind that the threshold for 
success in these attacks can be very low. If anything exploded 
due to a drone acting on the White House, even though it didn't 
cause much physical damage, that would be viewed as a 
successful attack. You know, it would cause psychological and 
economic damage.
    So in that case, they don't have to be much bigger than the 
one that I bought for my son for Christmas, and----
    Mrs. Watson Coleman. So then I guess my question is: How do 
we go about discerning what we should be concerned about, and 
how we should be--policy should be evolving and interagency 
interaction, you know, taking place so that we are prioritizing 
our response and our proactivity in this area, at the same time 
recognizing it has--these have very important economic 
benefits. They help farmers with their crops, they--certainly 
an industry that has the potential to be very, very successful, 
and we can certainly use that economy here.
    What is it that we should be doing? Are we now facing 
impediments because FAA has got a piece of this, DHS has a 
piece of this, Secret Service has a piece of this? You know, is 
anybody cooperating?
    Mr. McNeal. Congresswoman Coleman, I think this highlights 
the challenge that we all face, which is the spectrum of risk 
is from the smallest UAV up to extremely large 55-pound systems 
that could fly at 200 miles an hour and they are systems filled 
with fuel. But these have existed for decades.
    So for us to recognize the possible is, I think, really 
that first moment at which then we turn to homeland security 
and we say, ``It is time for you to have a comprehensive 
process where you study this.'' We do this all the time across 
Government, right? We pass a new bill that directs an agency to 
engage in scientific studies to figure out whether the benefits 
of adding a certain device to an automobile are worth it.
    That same type of scientific process has to be applied 
here.
    Mrs. Watson Coleman. Should that be sort-of our starting 
point?
    Mr. McNeal. I think that should be our starting point. I 
think we have recognized the potential and that a lot more 
research is required for us to do something.
    The best thing for us to do is to begin that process inside 
Government of making those studies and making informed 
decisions. Otherwise what I think and I fear will happen is 
that the next drone that crashes on the White House lawn has a 
firecracker on it and we say, ``What if it were something 
worse?'' and we make hasty decisions that aren't informed by 
science.
    Mrs. Watson Coleman. So, Mr. Roggero--I hope I didn't 
bastardize your name--you shared information with regard to our 
international partners around the world, and they are--they 
seem to be a little bit farther along than we are. So what are 
the lessons that we specifically need to learn from them as we 
embark on this year?
    General Rogerro. Thank you very much for that. One of the 
things that they learned--they started back in 2012--their 
trigger event, if you will, was the 2012 Olympics, and that is 
what they were concerned about--was that there is no single 
silver bullet that is going to apply. As you yourself said, it 
is a spectrum of threat, and one of the first things you have 
to do is catalogue that threat and identify it, and then go 
through the mitigation strategies that can be put against it.
    But one of the most important things that they discovered 
was that the defense had to be layered. It had to be a 
combination of things, as Dr. Humphreys was mentioning. It is 
not just electro-optical cameras and radars and thermal, but a 
whole slew--menu of things that you need to protect those 
vitally important parts and gatherings that we do have.
    Mrs. Watson Coleman. Thank you, Mr. Chairman. I have one 
more question, if I might? Thank you very much.
    This is, Chief Beary, you did--you illustrated the good and 
the bad of drones in law enforcement, and I was just wondering, 
with regard to what we learned in the Ferguson matter, is there 
any use for them in ensuring accountability, fairness, and 
protection of communities other than, you know, using them as 
revenue sources?
    Chief Beary. Well, on the revenue source side, I am not 
sure that there is any of those that exist now. I can tell you 
this, being a person who spent 30 years in municipal 
government, quite frankly, the operations out there were--
trying to use taxpayers to fund your system is wrong.
    I will tell you this as a police chief: Every police chief 
in this country works for a mayor and a city commission, or 
whatever the word is in your community, and they need to be 
held accountable, plain and simple.
    Mrs. Watson Coleman. Yes, they do.
    Chief Beary. I will answer the oversight--the comical, 
ironic part of this is in the State of Florida, as an 
individual I can buy a drone and I can fly it around and I can 
do what I want. As a law enforcement officer I can't operate 
one, because we have restricted them in Florida so anybody else 
can violate your privacy except the police. It is crazy, but 
that is what we have done because of the concern.
    So right now there is no use of accountability that I am 
aware of.
    Mrs. Watson Coleman. Thank you.
    Thank you, Mr. Chairman. I am really concerned about 
Orlando and Disney World.
    Mr. Perry. There are a lot of things to be concerned about. 
Thank you.
    The Chairman now recognizes the Ranking Member of the full 
committee, Mr. Thompson.
    Mr. Thompson. Thank you very much, Mr. Chairman.
    Excellent witnesses. You raise a lot of, I think, 
interesting points.
    For this committee, one of the real challenges is how do 
you insert the role of Government in this process? There are 
people who say, ``Well, we have too much Government already.''
    But there are others who will say if something happens, 
``Why didn't the Government see this coming?''
    So our question is--and I heard two things. Some say the 
role ought to be in DHS.
    General, you kind of talked about a broader involvement, 
but with no head. You know, you said we ought to get everybody 
together.
    So would your message to us be there is a role for 
Government, but somebody ought to have the primary 
responsibility for administering that role?
    I will start with you, Dr. Humphreys.
    Mr. Humphreys. Yes, I do believe there is a proper role for 
Government here. This is a question of security and safety of 
the citizens, and it seems obvious to me that DHS should lead 
out on this.
    There should be an interagency effort, but DHS should lead 
out on threats to our homeland, and especially so because the 
Secret Service, which has been highlighted in recent attacks at 
the--or intrusions at the White House, you know, is charged 
with protecting the White House and the President.
    So having a head at DHS or standing up a committee, as 
Professor McNeal had recommended, I think is a good idea. They 
have got the expertise--or should have the expertise to lead 
this off.
    Mr. Thompson. General.
    General Rogerro. Thank you very much, sir.
    I would probably split it up a little bit and say, 
``Department of Defense, you are responsible for those drones, 
if you will, or those remote-piloted aircraft that are state-
sponsored.'' So those are the larger ones. Those are going to 
be more your Predators and Reapers.
    As we talk drones, you know, it is very easy to slip into 
just thinking that they are just a quadcopter when they could 
be much more.
    DHS certainly has a role in that and in the security piece, 
as well. So perhaps DHS is the right area.
    Or do you pick an operational arm, such as in the 
Department of Energy, who has some very vital sites that they 
need to protect and could really identify the requirements and 
drive an effort and pull in all of those various bits on the 
defense as well as the mitigation technology and spread that 
throughout Government. So that is, perhaps, one solution as 
well, sir.
    Mr. Thompson. Chief, you are on the ground. You talked 
about a lack of direction.
    Chief Beary. Right. A lack of authority. If we have one 
that we deem a threat, what authority do I have to take it 
down? It doesn't exist.
    I think that Department of Homeland Security and DOD both 
share a role, and I think that in those areas of responsibility 
I think they could come back and make great recommendations for 
State and local law enforcement on how to deal with these 
threats.
    Mr. Thompson. Doctor.
    Mr. McNeal. So, as I mentioned in my written testimony, I 
think DHS should be the lead on this across all agencies. Of 
course, the threats exist in a lot of different places, but DHS 
has the experience to work with both the Federal Government and 
with local law enforcement.
    I do have to dissent a little bit from Chief Beary's point 
on--well, not a dissent, but a nuanced point here, which is 
that if we think about the risks that law enforcement is 
worried about we must also recognize Congresswoman Watson 
Coleman's point, which is that drones can be a form of 
accountability.
    What we saw in Ferguson was that local law enforcement--the 
AP got--FOIA'd these documents; local law enforcement asked for 
the grounding of drones so that the media couldn't cover what 
the police were doing. So it was used as--the security threat 
or the risk of safety to the officers was used as a tool to 
keep--to remove public accountability.
    I think that type of thing is something that when we 
elevate the threat picture too high and we spread it too far 
across Government, we run the risk of allowing those types of 
things to happen. That is why I think a single point of 
responsibility and accountability is the best way we can ensure 
that we are not going off the rails with any particular policy 
preference from one agency or one law enforcement perspective.
    Mr. Thompson. Thank you.
    I yield back, Mr. Chairman.
    Mr. Perry. Thank you, Ranking Member.
    Chairman now recognizes gentleman, Mr. Loudermilk.
    Mr. Loudermilk. Thank you, Mr. Chairman.
    Appreciate the testimony here, and I think, Dr. Humphreys 
and Dr. McNeal, you kind of hit on some significant areas with 
risk analysis as we go forward. Especially, I think the two 
categories that we can really look at this is the unintentional 
and the intentional.
    Unintentional, we can mitigate some of the incidents with 
that via regulation, legislation, technology, et cetera. But 
the intentional--it is more difficult because the bad guys are 
going to be bad guys. They are going to work around that.
    I put a lot of thought into this as an aviator, and working 
in search and rescue and different areas such as that. This is 
a question to anyone on the panel that has the information: 
Have there been any efforts or have we classified UAS platforms 
based on their technology, sophistication, payload capabilities 
complexity of operation?
    Do we have a classification, like we do with civilian 
aircraft? You know, we have the different classifications--
single engine, twin, land, sea-capable, et cetera.
    Mr. McNeal. Congressman Loudermilk, we do not currently. 
However, I and a bunch of other experts in the field and 
manufacturers are working with NASA to develop a system, and 
testing is beginning in August. So from drone manufacturers to 
drone consulting companies, we are all working with NASA to 
create the system to certify and basically create those 
categories of capabilities for platforms.
    The long-term vision is that once you have those 
categories--let's say class one through class five of small, 
unmanned aircraft--that will then ultimately feed into the 
unmanned traffic management system that we are hoping to have 
in place 10 years down the road. So it might be the case that--
--
    Mr. Loudermilk. The next-gen?
    Mr. McNeal [continuing]. That 10 years from now we will 
have something that is integrated with next-gen that will tell 
us the classification of aircraft. But that still won't do 
anything for home-builts that don't want to play ball with the 
traffic management system.
    General Rogerro. Congressman, actually NATO is already--
does have a classification and it is based on weight. That does 
go class one up to class four, and then it also is classed by 
capabilities, and then what their top vulnerabilities as well 
as their top capabilities are in there.
    So that is, once again, it is a good idea to look towards 
international partners instead of reinventing the wheel every 
time.
    Mr. Loudermilk. General, the classifications, are you going 
from, you know, what you can buy at the kiosk at the mall, 
which are the basic indoor--a nuisance more than a threat type 
system, all the way up to the--those that require a landing 
strip--you know, take-off and landing?
    General Rogerro. Correct. It would go by--it would take 
things into account such as size, engine capacity, fuel or 
battery requirements, and their ensuing capability to speeds, 
et cetera.
    Mr. Loudermilk. Payload?
    General Rogerro. Absolutely, sir.
    Mr. Loudermilk. Okay. It sounds like there has been a--we 
are kind of in the same direction.
    Looking at the unintentional side, as a private pilot the 
concern is those that can go, you know, above 500 feet AGL, 
especially around an airport. We have got plenty of class G 
airspace in the Nation, which is unrestricted, but yet a lot of 
private pilots, sport pilots, ultralight pilots operate at low 
altitudes but still at the slow speeds that we are flying, as 
compared to our military friends.
    Still you are not going to see one of these quads or 
certain UAVs until after you have impacted it. Looking at this 
classification--model rocketry ran into this back many years 
ago and the industry kind of self-regulated itself.
    If you are familiar with model rocketry, you can go to a 
hobby store and buy the little SDs model rocket engines. They 
are capable of low-altitude flight, but there is a 
classification that if you get above I think 1,000 feet and 
then 10,000--they have level one, level two, level three--you 
actually have to be licensed to purchase the propeller.
    Has anybody looked at any type of classification that if a 
UAV is capable of a certain altitude, or outside-of-line-of-
sight operation, then you have to be licensed? I fully think 
that if you are going to do that you need to at least have a 
basic ground school. Maybe not a medical, but at least know the 
area you are operating in.
    Is there any movement in that direction?
    Mr. Humphreys. I will say that the challenge here is that 
the same drone that can operate up to 400 feet can easily 
operate above that, and even if we put in these geo-fences that 
exclude them from sensitive areas or from above 400 feet, an 
operator who had some knowledge of the autopilot system could 
override that sort of a geo-fence.
    So the classifications smear into one another, and it is 
not just a question of knowing how high they can fly because 
most of them can fly fairly high if their batteries will hold 
out.
    Mr. Loudermilk. What about technologies such as those that 
are beyond just the small quads you get at a mall--a 
requirement of a transponder or a next-gen system to be on 
those?
    Mr. McNeal. The FAA has not required this type of 
technology but the industry is evolving to create it. So I 
recently saw ADS-B small enough to fit on a small, unmanned 
aircraft and it would interface with the, obviously, with the 
air traffic system, and you would be able--presuming that you 
are in an aircraft where you are then able to know other 
aircraft around you, you would know that that aircraft was 
nearby.
    Of course, that doesn't solve the small sport and 
ultralight category of pilots who simply are not going to see 
this type of aircraft in the National airspace.
    Mr. Loudermilk. Chairman thanks the gentleman from Georgia.
    The Chairman recognizes the gentleman, Mr. Richmond.
    Mr. Richmond. Thank you, Mr. Chairman.
    Thank you, to the Ranking Member of the full committee, and 
the Ranking Member of the subcommittee, and the witnesses.
    Let me just start with some very basic stuff.
    Major General Roggero, let me start with you.
    I represent the district with probably the largest 
petrochemical footprint in the United States on the Mississippi 
River in New Orleans, around New Orleans. Is there any 
technology out there right now that would prevent these drones 
from being used to do reconnaissance missions just to look at 
the security on these chemical facilities or our port or any of 
those very sensitive properties?
    General Rogerro. From a technology aspect, depends on what 
equipment they are using. But for a good amount of it I would 
say yes, there is technology that could do things.
    I am not looking at policy right now or questions on 
technology, but yes, technology could get into the signal--
either the video or the command and control of the system--and 
affect the navigation of the system so it may not be looking 
exactly what they want it to look at. So that is there.
    But there are complications with that in terms of policy, 
with FCC rules and other things that--another issue that is out 
there is that the FAA has declared that all of these are 
aircraft, and as such, their second and third order of 
effects--perhaps unintended effects--but that aircraft is given 
protections as if it were a manned aircraft, as well. So there 
are certain actions, according to policy, that you can't take 
against them.
    Mr. Richmond. Very quickly, I mean, part of this, I think, 
will have to be some industry, some Government, and everybody 
uses some common sense. But I think back to the very simple 
analogy of, if you go to the fancy golf courses and you are in 
the golf cart, there are some places the cart will not let you 
drive, like close to the green and other places they don't want 
you.
    So at some point, you know, when we start talking about 
high school football games or, well, facilities--football 
stadiums, and baseball stadiums, and all of those things, do 
you see a day where those will, either GPS or otherwise, just 
be off-limits in terms of the capability of not being able to 
go in that space?
    Dr. McNeal.
    Mr. McNeal. Congressman Richmond, I don't necessarily see 
it as a technological solution. I think, as Dr. Humphreys 
pointed out, that is part of the equation.
    In fact, the industry is already self-regulating for 
airports and other sensitive sites. There are start-up 
companies now that are allowing individuals to file the GPS 
location of their private property in the hopes that the 
manufacturers will then use those maps as no-fly zones.
    I think what we will eventually find is that State and 
local government, through their zoning authority, will begin to 
say that certain areas are no-fly zones. We already see this in 
Los Angeles, for example. You are not allowed to fly a model 
aircraft on the beach or in parks. The National Park Service 
has said the same thing.
    Then what happens is that local law enforcement can come in 
and say, ``Listen, this is a place where you are not allowed to 
fly,'' and they are able to intercept the individuals.
    What that does for us from a security perspective is then 
it--when an aircraft is in that area, law enforcement doesn't 
have to make a judgment about whether it is nefarious or not; 
they can begin with the presumption that this person at best is 
someone who is unaware that they are violating the law in that 
particular no-fly zone, thus giving them reasonable suspicion 
or even probable cause to go talk to the operator. Then from 
there, that also puts--heightens the security picture for them.
    Of course, there is a cost associated with that in that we 
lose some of the beneficial--the benefits of the technology. 
That is why I almost think that on designating no-fly zones 
that are non-Federal, we want to leave that up to State and 
local to figure out the right way to balance the costs and 
benefits.
    Mr. Richmond. Chief, let me just ask you a question, 
because earlier you mentioned, you know, at some point you 
would have to make a decision whether to take a drone down or 
not. Let me just ask you the--for me, the practical part of it. 
How do you do that?
    Let's assume it is over a high school football game and you 
can't determine whether it is a amateur hobbyist or whether it 
is something nefarious. If you decided you wanted to take it 
down, what do you do?
    Chief Beary. Well, therein lies the challenge. Most State 
and local law enforcement have no capability to do that.
    No. 1, we don't have the technological capability. More 
importantly, we don't have the lawful authority.
    As the general said, those are--they are aircraft. I don't 
have the lawful authority to take down an aircraft. There is 
not a State and local law enforcement agency in this country 
that does.
    So right from the start we have no authority, so how am I 
going to respond?
    These are the incidents, though, that the rank-and-file 
watch commanders in our agencies across this country are 
dealing with every single day now. When you have a hostage 
situation or you have any kind of major scene, you have got 
drones everywhere, and the helicopter is calling down saying, 
``You have got to get these drones out of the airspace because 
I am trying to work a perimeter here.''
    So our people have just--we don't have the resources and we 
don't have the backing of the law to help us deal with these 
situations. That is why I said in my testimony this is really a 
call for help.
    Mr. Richmond. Mr. Chairman, thank you so much.
    Thank you, to the witnesses.
    Mr. Perry. Chairman thanks the gentleman from Louisiana and 
recognizes the gentlelady from California, Mrs. Torres.
    Mrs. Torres. Thank you so much, and thank you for the 
opportunity to discuss this very important topic.
    Just to follow up on your conversation, as a former 9-1-1 
dispatcher I can tell you from personal experience that trying 
to get clearance to--as we are pursuing a vehicle, or our 
officers are pursuing a vehicle, trying to get clearance from 
an airport to follow a vehicle into that restricted zone, our 
helicopters are unable to continue that pursuit, but yet the 
media or, you know, folk from the ground can continue that 
pursuit through a drone.
    That poses, you know--it is a very scary environment for 
those of us who live near an executive airport, for example, 
where our homes are very close by, and the--and these executive 
aircraft are landing--their landing route is right over our 
home. I thought, you know, birds were the scariest things that, 
you know, could face an aircraft as they are beginning to land, 
but now we have more and more of these drones that are getting 
in that way.
    My question is really going to be to Professor Humphreys, 
and that is, in your prior testimony before the committee in 
2012 you spoke of the use of civilian GPS and their ability to 
be spoofed or counterfeit. Can you tell me how technology has 
evolved? You know, what are the differences between then and 
now with older and newer models?
    Mr. Humphreys. Well, despite the passage of 3 years and 
despite the fast-moving technology in this area, you still 
cannot purchase over-the-shelf anything that can resist a 
spoofing attack like the ones we generate in my lab. I know the 
DHS has established some contracts to study the problem, and 
the FAA put together a tiger team to look at the problem, but 
still, only 3 years later, the problem exists.
    In the current situation you can almost look at that 
weakness of GPS as a possible way to bring down these drones. 
But I would discourage that, because in transmitting false GPS 
signals, that will have unintended consequences for these 
executive airports, as you say. You don't want to endanger 
commercial airliners or even passersby who are trying to use 
their sat nav in their car to find their way to their office.
    Mrs. Torres. Thank you. I yield back my time.
    Mr. Perry. Okay. Chairman thanks the gentlelady.
    We are going to go for a second round and we are going to 
go a little bit out of order. Mr. Loudermilk has to leave 
early.
    So, as a matter of fact, I think I am just going to turn 
the floor over to him for questioning, and then we will move 
through the regular order at that point.
    Mr. Loudermilk. Thank you, Mr. Chairman, for your 
indulgence. I do have a meeting to get to, but this is 
fascinating. It is of great interest to me and something that 
my office has been putting a lot of work and thought into.
    What percentage of the platforms are manufactured 
domestically versus internationally? Do we know that?
    Anyone?
    Mr. Humphreys. I know that the most popular quadcopter in 
the world is manufactured in China, and that is the most 
popular by far. But other U.S. domestic drone manufacturers--
notably, the--robotics community, the do-it-yourself community 
are also large. As I said earlier, the knowledge is out there; 
the documentation is extensive.
    Mr. Loudermilk. Okay. One of the reasons I was asking, you 
know, what level of regulatory constraint that we can put on 
the technology or, back to the police chief's ideas of how do 
we bring down these platforms when they are operating 
nefariously or unintentionally?
    Is the technology there? Do we have the influence over the 
technology that we can--I imagine most of them use some type of 
R.F. signal to control them--to intercept the R.F. signal, to 
force a go-home activity, you know, fly back to the source? Is 
that even a conceivable idea that would be made available to 
law enforcement?
    Mr. Humphreys. It is conceivable. It does work, but it only 
really works against the unintentional, accidental, or 
unsophisticated attackers. If I am a sophisticated attacker I 
can adapt the autopilot to simply disregard any communication 
from the ground and work on an autonomous approach.
    So it depends on what you want to protect. If it is just 
the accidental, incidental, yes, that can be effective.
    But again, these technologies are operating in popular 
communication bands--wi-fi bands, and in the future they will 
be operating over LTE bands. You don't want to mess with those 
bands in a wide area. You will disrupt other people's 
activities, and maybe safety of life activities.
    Mr. McNeal. Congressman, the only thing I would add there 
is that while the interdiction problem seems--it seems 
problematic to us for the moment that it is there, and I can 
only imagine law enforcement having that feeling of 
helplessness, my response would be, you know, wait 25 minutes 
because the battery is likely to run out on that system, and 
there really are not very many systems in the quadcopter space 
that can fly for longer than 25 minutes. When you get into the 
fixed-wing model aircraft, basically, you get a bit more--a bit 
longer flight time.
    The only other thing that I think I would raise there are 
the obvious civil liberties concerns and First Amendment 
concerns, because if you--instead of thinking of these as mere 
flying aircraft, if you think of them as flying cameras that 
might be operated by Fox News or NPR, you are immediately 
running into the question of the Government being able to turn 
off CNN's cameras, and that could be really problematic. So I 
am not certain that even if were able to implement this 
mitigation technology to take control of the aircraft, that it 
would be something that we would want to do.
    Mr. Loudermilk. That is a good point. I agree with you 
there.
    I also look at it from a personal privacy standpoint. What 
if it is hovering over my backyard, you know? What rights to do 
have to take it down? I have got a 12 gauge that could assist 
in that pretty readily.
    But you can't engage that in a public area.
    Chief, you brought up a challenge that you have. You have 
no right to take down any aircraft. No one in the Nation does, 
as far as local law enforcement.
    But the operator is on the ground somewhere. You do have 
authority over the operator, correct?
    Chief Beary. The answer to that is ``it depends.'' If they 
are lawfully in a place where they are allowed to do that--here 
is where we get into the question is, how do--who do I justify 
to what my actions were? Usually it ends up being in a civil 
court several years down the road.
    That is why if we had some guidance on the front end it 
would help us write those policies for our personnel. Those are 
these situations we get into right now.
    It is interesting you talked about your backyard, because 
what law enforcement is receiving now, we are getting those 
calls from the people that are on their back deck and then 
there is a camera in a drone looking at them. They call law 
enforcement, and what right do I have to deal with that?
    As these systems get more sophisticated, as I talked about, 
with the flying by virtual reality, they are not--the people 
aren't as easy to find anymore, trying to find the operator.
    Mr. Loudermilk. Right.
    Chief Beary. So it is problematic. We are seeing more and 
more of those privacy concerns coming it from residents that 
walk outside and there are three of them in their backyard.
    Mr. Loudermilk. Thank you.
    Thank you, Mr. Chairman.
    Mr. Perry. Chairman thanks the gentleman.
    Chairman recognizes the Ranking Member, Mrs. Watson 
Coleman.
    Mrs. Watson Coleman. Thank you. Thank you, Chairman.
    I want to thank each and every one of you for the 
information you shared today. You have given us a lot to 
consider, and hopefully we come up with recommendations and 
considerations that are cost--you know, that make sense in 
terms of cost, make sense in terms of application, make sense 
in terms of collaboration, and make sense in terms of the 
parameters that we--that get established in dealing with this 
sort of wide spectrum of issues.
    My last question is to Mr. Roggero, because in your 
prepared testimony you recommended that on-going research and 
development program to devise counters to new drone 
technologies that should be established and funded.
    So my two-part question is, regarding that funding, what 
type of investment in counter-drone technology should Congress 
expect to make to realize the intended results? Would you 
suggest partnershipping with colleges and universities to 
conduct research and development in the areas of drone 
insecurity?
    General Rogerro. Thank you very much for the question, 
ma'am.
    I certainly do agree with investing because, as we have 
seen, this hearing is different from the one that was 2 years 
ago, and different technologies and things are out there now. 
The next hearing that we have in a couple years is also going 
to change and evolve.
    So the R&D needs to be spent now. We have to focus on the 
capability that is out there now and available and install 
that, put that in place where it makes sense for the Government 
to protect those critical infrastructure points now. But going 
into R&D certainly makes sense, and going into universities is 
great for those scanning of the horizons in the 5-year-plus so 
that we don't find ourselves behind again.
    I would even go one more step. This might be a great 
opportunity for a public-private partnership with those 
corporations that are heavily dependent in their new business 
plans on the use of drones, such as Amazon, Google, and Apple, 
who have all professed to be very interested in this 
technology, but certainly the security and safety issues can 
hurt their business plan, quite. So they may be a willing 
partner in this R&D as well.
    Mrs. Watson Coleman. Well I can certainly see that they are 
a natural partner here. Do you have any estimates of what you 
think the Government's cost associated with taking on such an 
endeavor would be? Just sort-of an estimate?
    General Rogerro. Well, I will turn to the university 
professor who is more engaged with grants than----
    Mr. Humphreys. Sure. So you can do a lot of good with very 
little funding in this area.
    Mrs. Watson Coleman. We are finding that out.
    Mr. Humphreys. I would say that you do need to recognize 
that even a risk assessment, however, is a--it can be something 
or it does require funding. I mean, we were talking earlier 
about doing a risk assessment before spending any funds, but a 
risk assessment itself requires some research.
    I was involved with a DHS risk assessment in 2011 where a 
bunch of us subject-matter experts were brought into a room, 
asked questions we poorly understood, and asked to vote. It was 
just appalling, in my view, that this was the procedure for 
determining whether there were real risks, instead of handing 
us some marching orders and giving us some funding to go out 
and find out really what were the answers.
    By the way, I have friends at Google today who may be 
watching this proceeding who are interested in knowing how they 
could help, because they do have a business interest in 
securing drones from malfeasance and making sure that the 
drones themselves aren't the bad actors.
    Mrs. Watson Coleman. Thank you.
    Thank you very much, Mr. Chairman. I am through.
    Mr. Perry. Chairman thanks the gentlelady.
    I have got some questions continuing. I will start with the 
general.
    Given the wide range of threats the UAS can pose, the 
creation of a DHS strategy on domestic UAS will be a crucial 
aspect in mitigating the threat. Or maybe it is not DHS; you 
postulated maybe it would be DOD.
    I just wrote down FAA, DOD, DOE, Justice. There is no 
limit, probably, to the number of agencies that might or should 
be involved in a comprehensive strategy.
    But let's just say you were going to write a strategy. You 
know, I have got 5 minutes, right, and you have got some of 
that, so give me the high points, maybe, if you could, General, 
about what you think is important regarding such a strategy.
    General Rogerro. Certainly, sir.
    I would first of all, as we discussed earlier, identify the 
threats, identify what needs to be protected, and in all cases 
that may not be a thing--it may be a reputation, it may be a 
brand. The White House is a great example. The drone was no 
threat kinetically, but to the reputation of the United States 
Government to protect a key spot, it very much is very 
important.
    So I would identify those priorities and then get the 
resources down right and figure out where you need to apply 
those resources today while you are doing that research and 
development tomorrow to get those capabilities moving. So it is 
a multi-prong.
    In the mean time, you also have to look at all of those 
authorities that law enforcement needs, make sure the rules are 
clear, and have a whole roll-out campaign, a strategic 
communications campaign, if you will, to get to the public, to 
let them know where you can fly, where you can't fly, what the 
penalties are, and if you see something you need to say 
something.
    Mr. Perry. Thank you. Continuing, just if you can, 
General--and anybody else, I will start with the general--some 
examples, maybe, of some larger UAS above 55 pounds. The 
availability, the payload--I am trying to determine--and--for 
myself and maybe anybody watching or listening what really the 
potential worst-case scenario could or would be.
    Then, you know, if you maybe classify that in terms--I 
guess we had a potential cyanide issue at the White House. It 
is in the news today. You put a container--a small container--
of anthrax or ricin or something like that on even one of these 
small, less than 55 pounds--I think it certainly has the 
ability to carry that payload.
    Can you paint a picture for us--maybe not necessarily a 
worst-case scenario, but an actual probable scenario or a 
possible scenario with somebody with that kind of malicious 
intent, what the capabilities that exist?
    General Rogerro. Certainly. I am an R.C. hobbyist myself, 
and there are some local hobby stores not very far away from 
where we are sitting here today in the District of Columbia 
that if you go into you can have an F-16 jet that is about as 
long as this table that has a turbofan engine and has fuel 
which is in and of itself an explosive. This will do probably 
200 to 300 miles an hour and you need a small runway to take it 
off from. It could fly from a location just outside of the 
District of Columbia into the center of the District of 
Columbia within minutes.
    So that is here and that is current, so don't want to scare 
you any more than that, sir.
    Mr. Perry. I think I can understand the potential, the 
possibilities.
    Dr. McNeal, you want to weigh in?
    Mr. McNeal. Congressman Perry, the example that the general 
pointed out actually, in preparation for the testimony, I tried 
to find the earliest example of someone on the internet talking 
about this type of thing and there was actually a researcher 
out of--it was either New Zealand or Australia who basically 
said--who wanted to create remote control cruise missiles using 
a similar system to what the general is talking about.
    I mean, this is DIY technology and there is very little we 
can do to mitigate against that, and you are looking at a high-
speed missile at a low altitude.
    With regard to the dispersal threat, we have--I think you 
have probably been in the threat briefings where people talk 
about the unmanned aircraft as a threat dispersal--as a 
dispersal method. It is almost too cute by half, though, 
because if you really wanted to have a high impact with a WMD, 
first we have the problem of getting the WMD. But if you have 
anthrax, that is not the best way to do it.
    Go to every Starbucks on every corner in the District of 
Columbia, sprinkle it into the sugar. Or put it in a sugar 
shaker on the roof of your car and drive around and you will 
impact a lot more people through that dispersal method than you 
would through the aircraft, which--right?
    Now, this, of course, assumes that the enemy is smart 
enough to think these things through, and some of the guys who 
have got caught haven't been the brightest, you know, bulbs on 
the Christmas tree. But----
    Mr. Perry. Even if they are not, I mean, let's say they are 
smart enough to go to a sporting event where--a large stadium 
and fly it low over the crowd, almost within arm's reach, I 
mean--and maybe it has an impact on you or not, but which one 
of us wants to be the person that said, ``Well, look, I got 
checked out and I was fine,'' you know, over the course of 
thousands of people in that--and, you know, you already 
talked--the chief has talked about panic setting in, people 
running across each other and down the steps and falling, and 
little children and older folks, and so on. I mean, you can 
picture the scene, right?
    Mr. McNeal. Yes. Mr. Chairman, you have also highlighted 
the other challenge in our planning process, which is that the 
threat of anthrax being spread at Starbucks in the sugar is 
something that is not as tangible as the cameras picking up the 
drone as it flies in over the football stadium, and that 
psychological impact is also something that the terrorists 
would go for, but also that unfortunately drives policy in a 
way that is not probabilistic but is possibilistic.
    Mr. Perry. Would any of you folks here, depending on size, 
classification, are any of you advocating or recommending 
registration of some type towards ownership so that the, you 
know, as the chief said, you know, the aircraft that is 
flying--and, you know, his officers are all standing there 
looking at it, they can't do anything about it. Maybe they 
can't at that moment, but once maybe rules are set into place 
where it is illegal to do what has just been done, they can 
actually track down the perpetrator and link those two up so 
that we know what he is doing at X house and there is 
justification.
    Is anybody advocating or has anybody thought about that, or 
what are the considerations----
    General Rogerro. The only way right now is through support 
groups such as the AMA, which pulls in modelists and has a set 
of rules and regulations that people voluntarily roll into.
    I would not be opposed to registration for somebody that 
either buys or builds a certain size UAS with a certain 
capability. I don't see where anybody would have a problem with 
that, and putting that accountability into this system where 
these capabilities are going so high so fast I think is 
probably a good thing and well-deserved.
    Mr. Perry. To the chief, you know, we talked a little bit 
about law enforcement's role or the role of UAS with law 
enforcement in the context of civil liberties, but also in the 
context of using the asset to law enforcement's advantage for 
search and rescue, or maybe surveillance in a hostile 
situation, et cetera, and then juxtaposed that to State laws 
and the 10th Amendment.
    Can you describe, generally speaking, what do you think 
the--at this point--the role of UAS is, the legitimate role of 
UAS in law enforcement would be? Just so we have a clear 
understanding of where--you know, how we can help you and how 
we can assist in--but at the same time make sure that 
everybody's privacies and civil liberties are maintained?
    Chief Beary. Yes, sir. We certainly are always concerned 
about the civil liberty aspect, and I echo that concern.
    Where they would be very beneficial for law enforcement are 
those quick tactical situations where I have got--the example I 
could give you is a railroad car. We have got a derailment and 
I have got a situation. Well, it might be 20 minutes or 15 
minutes before I can get a helicopter, but I can put up an 
unmanned aerial system in 3 minutes with a video camera with a 
live feed back and I can see where I need to immediately create 
my evacuation zone, I can--I am getting real-time data instead 
of waiting for the State police helicopter or somebody else to 
get there.
    So those kind of very fast incidents would be a huge help 
to us. Again, we talked--in my testimony I talked about high-
risk warrant service. The same thing--instead of a loud 
helicopter being up drawing attention, I could deploy a couple 
of small drones with video feeds so that we could know that the 
area is secure and our--and the evacuation is going as planned.
    So those are just a couple of quick examples of how we 
could deploy this and keep the public safe and the officers 
safe. Reduce costs, by the way. Helicopter time is very 
expensive.
    Mr. Perry. Well, it is unless you are the Department of 
Homeland Security, and I think at our last hearing they paid 
about $22,000 or $23,000 an hour for their Predator time. As a 
helicopter pilot myself, you know, there are a lot of 
helicopter pilots that would love to charge that amount of 
money to do surveillance and they would make a pretty good buck 
at it.
    Finally, let me conclude with this: Based on what you have 
heard today--you folks are, I think, recognized as having some 
expertise in--the field, and we are trying to craft a policy, a 
strategy, et cetera--do you have a recommendation, each one of 
you, regarding which agency--I know, you know, I have something 
in my mind, but which agency should take the lead on maybe 
policy formulation or execution, should the legislative bodies 
do that, and work out the strategy, you know, proposed 
strategy?
    We will start with Dr. Humphreys.
    Mr. Humphreys. Sure. As I said earlier, Chairman Perry, I 
believe the DHS has the obvious role to play here.
    But I would also say that if DHS proves to be an unwilling 
leader or an incapable leader then others could step in. 
Someone else mentioned the Department of Energy. I also think 
the FAA has shown itself to be quite competent in this area. 
They are mostly looking at threats to aviation, but the threats 
by aviation against our homeland could also be within their 
expertise, I suppose.
    But most importantly, I would like to reiterate that simply 
saying we are going to throw together a risk assessment isn't 
free. So we end up needing to have a deliberate risk 
assessment.
    I believe DHS should lead that off, but it might need to--I 
would say it would need to involve deliberate research, perhaps 
funded research, whether by universities, Federally-funded 
research and development centers, or private groups, where they 
can do a deep dive into the problem and not just be asked 
questions off the cuff that they might be poorly prepared to 
answer.
    Mr. Perry. Okay.
    General.
    General Rogerro. Yes, sir. I would say in the policy realm 
that DHS probably has the correct knowledge and background to 
take the lead on the security piece. However, it would have to 
be very closely aligned, I think, with the FAA, which, as you 
know, is a safety of flight piece.
    But by designing policy and security you could take that 
airborne asset, as we have been talking about this morning, and 
push that into an aviation safety incident. So I think that the 
FAA has to be there with their expertise of aviation on this 
process, as well.
    Mr. Perry. Chief.
    Chief Beary. Because we deal with DHS on a regular basis, 
most State and local law enforcement agencies, to me it is a 
natural, where we have those relationships built. The number of 
agencies that report to them I think make it conducive.
    I do absolutely agree with the general that the FAA needs 
to be a part of it, because it is a huge part of it. But 
integrating with State and local law enforcement, I think DHS 
would be the right vehicle to do that.
    Mr. Perry. Dr. McNeal.
    Mr. McNeal. Congressman Perry, here is a four-part plan for 
how I would put it together. I would direct that the under 
secretary for National Protection and Programs Directorate be 
the lead individual responsible for this across the Federal 
Government.
    Second, I would allocate to that office funding for a 
program office that would have temporary personnel--probably 
contractors that report to NPPD. You would probably need $5 
million to $10 million to stand up the office with personnel 
and be able to do testing.
    Third, I would require that all other Government agencies 
have to play if they want to get paid. So if DOE wants to 
implement security measures at their facilities they better 
participate in the threat assessment process, otherwise the 
funding won't be allocated through the under secretary down to 
those pieces of critical infrastructure.
    Then fourth, as a check against sort of empire and 
bureaucracy-building--not that that happens in the District of 
Columbia--I would allocate some funding to the homeland 
security centers of excellence, which are your research 
institutions, that could do similar threat assessments to check 
the work of the Government. I will tell you, if you put Dr. 
Humphreys and I together with, you know, a half-million dollar 
grant, we would do a lot with that money--probably more than 
many of the people in Government would do because we are 
cheaper.
    So I think that four-part plan of outside independent look, 
you have to play if you want to get paid, and then a program 
office supervised by the under secretary, is the most effective 
way to move this forward. It is relatively small cost. I 
recognize funds are limited.
    Mr. Perry. All right.
    Thank you very much, gentlemen. I thank you for your 
valuable testimony and the Members for their questions.
    Of course, the Members of the subcommittee may have some 
additional questions for the witnesses and we will ask that the 
witnesses respond to those in writing. Pursuant to committee 
rule 7(e), the hearing record will be open for 10 days.
    Without objection, the subcommittee stands adjourned. Thank 
you.
    [Whereupon, at 11:33 a.m., the subcommittee was adjourned.]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
